<html>
<title> - WHAT CAN THE FEDERAL GOVERNMENT LEARN FROM THE PRIVATE SECTOR'S SUCCESSFUL AP- PROACH TO HIRING VETERANS?</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




 
    WHAT CAN THE FEDERAL GOVERNMENT LEARN 
      FROM THE PRIVATE SECTOR'S SUCCESSFUL AP-
      PROACH TO HIRING VETERANS?

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                       TUESDAY, JANUARY 28, 2014

                               __________

                           Serial No. 113-50

                               __________

       Printed for the use of the Committee on Veterans' Affairs
       
       
[GRAPHIC IS NOT AVAILABLE IN TIFF FORMAT]       


         Available via the World Wide Web: http://www.fdsys.gov
         
                               ____________
                               
                               
                          U.S. GOVERNMENT PUBLISHING OFFICE
86-726                        WASHINGTON : 2015                        
         
        
________________________________________________________________________________________         
   For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1d7a6d725d7e686e697578716d337e727033">[email&#160;protected]</a>  
      
         
         
                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

DOUG LAMBORN, Colorado               MICHAEL H. MICHAUD, Maine, Ranking 
GUS M. BILIRAKIS, Florida, Vice-         Minority Member
    Chairman                         CORRINE BROWN, Florida
DAVID P. ROE, Tennessee              MARK TAKANO, California
BILL FLORES, Texas                   JULIA BROWNLEY, California
JEFF DENHAM, California              DINA TITUS, Nevada
JON RUNYAN, New Jersey               ANN KIRKPATRICK, Arizona
DAN BENISHEK, Michigan               RAUL RUIZ, California
TIM HUELSKAMP, Kansas                GLORIA NEGRETE MCLEOD, California
MIKE COFFMAN, Colorado               ANN M. KUSTER, New Hampshire
BRAD R. WENSTRUP, Ohio               BETO O'ROURKE, Texas
PAUL COOK, California                TIMOTHY J. WALZ, Minnesota
JACKIE WALORSKI, Indiana
DAVID JOLLY, Florida
                       Jon Towers, Staff Director
                 Nancy Dolan, Democratic Staff Director

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.
                            C O N T E N T S

                              ----------                              
                                                                   Page

                       Tuesday, January 28, 2014

What can the Federal Government Learn From the Private Sector's 
  Successful Approach to Hiring Veterans?........................     1

                           OPENING STATEMENTS

Hon. David P. Roe, Acting Chairman...............................     1
    Prepared Statement...........................................    33

Hon. Mike Michaud, Ranking Minority Member.......................     2
    Prepared Statement...........................................    35

Hon. Bill Flores
    Prepared Statement...........................................    35

                               WITNESSES

BG Gary M. Profit (USA, Ret), Senior Director, Military Programs 
  Wal-mart.......................................................     3
    Prepared Statement...........................................    37

Mr. Sean Kelly, Senior Staffing Director, Cloud and Enterprise 
  Group ` Military Recruiting Microsoft Corporation..............     5
    Prepared Statement...........................................    38

Ms. Maureen E. Casey, Managing Director, Military and Veterans 
  Affairs, JPMorgan Chase ` Co...................................     7
    Prepared Statement...........................................    46

Mr. Jim Amos, Chairman Tasti D-Lite and Planet Smoothie, On 
  Behalf of the International Franchise Association..............     8
    Prepared Statement...........................................    50

Mr. Ross Cohen, Senior Director, Hiring Our Heroes, U.S. Chamber 
  of Commerce Foundation.........................................    10
    Prepared Statement...........................................    53


    WHAT CAN THE FEDERAL GOVERNMENT LEARN FROM THE PRIVATE SECTOR'S



                SUCCESSFUL APPROACH TO HIRING VETERANS?

                              ----------                              

                       Tuesday, January 28, 2014

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                                                   Washington, D.C.
    The committee met, pursuant to notice, at 9:57 a.m., in 
Room 334, Cannon House Office Building, Hon. David Roe 
presiding.
    Present:  Representatives Roe, Flores, Denham, Benishek, 
Wenstrup, Walorski, Michaud, Brown, Takano, Brownley, Titus, 
Kirkpatrick, Negrete McLeod, Kuster, O'Rourke, and Walz.

       OPENING STATEMENT OF ACTING CHAIRMAN DAVID P. ROE

    Mr. Roe. Good morning. The committee will come to order. 
Chairman Miller regrets he is unable to be here today but I 
will be standing in for him during his absence, and welcome.
    As we begin the committee's work for the second session of 
the 113th Congress I believe it is appropriate to examine one 
of the top priorities of this committee since 2011, improving 
employment opportunities for veterans. According to the U.S. 
Bureau of Labor Statistics the unemployment rate for all 
veterans in December of 2013 was 5.5 percent. This is in sharp 
contrast to December of 2010 when the unemployment rate for all 
veterans was 8.3 percent. This equates to a difference of over 
369,000 jobs and more veterans finding work.
    While I believe that programs like the G.I. Bill and VRAP 
have helped to position veterans to obtain the skills needed to 
get a job in today's tough economy, the most significant factor 
in the drop in the unemployment rate has been that American 
corporations, and most importantly small businesses, have truly 
stepped up to the plate and have made it a priority to recruit, 
hire, and retain veterans. These companies and trade 
associations have made hiring veterans a priority not out of 
charity but because it is simply a good business decision. They 
have learned that the soft and hard skills as well as the 
incredible work ethic that veterans bring to the table are 
unmatched and make them excellent employees.
    Today's panel of witnesses represent companies and 
associations that are among the best of the best when it comes 
to hiring and promoting the hiring of veterans. These companies 
have not only launched initiatives to train and hire veterans 
but they have worked within their own industries and across the 
private sector to bring innovative approaches to increasing 
employment in the veteran population. I hope that listening to 
their testimony and having the opportunity to ask some 
questions will give members a better understanding of the 
commitment these companies have to veterans and countless 
others who share this commitment in each of our districts.
    I am also very interested to hear the panel's opinions on 
federally funded training and hiring programs for veterans that 
Congress funds every year. As many of you know improving the 
performance of these programs has been and will continue to be 
a focus of this committee, and I am looking forward to learning 
what programs if any the private sector finds to be the most 
successful, in short what works and what does not work.
    While great strides have been made in reducing veterans' 
unemployment rate I think that we all agree that much more is 
needed to create the best environment for job creation and 
growth as our men and women continue to transition from active 
duty service into civilian life. I remain concerned that over 
taxation, crushing business regulations which increase costs 
and reduce competitiveness, as well as well documented concerns 
and uncertainty surrounding the implementation of the 
Affordable Care Act threaten the hard work of our panelists and 
many others in making it a priority to hire our veterans. I 
look forward to hearing from each of our panelists today of how 
Congress can promote pro-growth policies that will help create 
new jobs for veterans and all Americans alike.
    At this time I yield to the distinguished Ranking Member 
Mr. Michaud.

    [The prepared statement of Chairman David Roe appears in 
the Appendix]


   OPENING STATEMENT OF MIKE MICHAUD, RANKING MINORITY MEMBER

    Mr. Michaud. Thank you very much, Mr. Chairman, for having 
this very important and timely hearing this morning. Providing 
veterans with an opportunity for employment is a top priority 
of this committee. In the tough economy we want to make sure we 
are doing everything that we can to help our veterans succeed 
in making that transition from active duty to serving the 
communities and making employment gains in their respective 
areas.
    This is especially important as we look to future 
servicemembers leaving the military in greater numbers. Any 
employer should be proud to have the employee with the 
resiliency, leadership, and collaboration, and ability to do 
the fundamental part of their job. Far too often these 
experiences are not readily translated and to match the needs 
of the private sector. It takes imagination and a bit of work. 
But in the end the effort is worth it. Businesses can get 
access to highly skilled and motivated individuals and veterans 
can build careers that can benefit their families and their 
communities.
    This morning I look forward to hearing about the successes 
and challenges our witnesses have faced and their 
recommendations when it comes to hiring veterans. I look 
forward to hearing how public and private entities can better 
work together to provide a better transition to the 
servicemembers entering the workforce. I look forward to 
hearing from our witnesses regarding best practices and how 
they can be used to inform the private and public sectors in 
helping veterans find jobs. But most of all I look forward to 
hearing from our friends in the private sector about how our 
country's veterans are continuing to serve this nation by 
contributing their skills and talent as they move forward in 
helping these companies be prosperous companies.
    Maintaining our nation's economic leadership in the decades 
ahead will require highly skilled and educated employees who 
will lead the technology change. Veterans have proven their 
leadership and can-do quality in service to our country. They 
represent an untapped resource to provide the next generation 
of employees.
    Our job on this committee and in this Congress is to find 
ways to explore new and innovative ways to assist veterans and 
the businesses that hire them. This includes identifying what 
works and what does not work; what can be modified and what 
must be looked at differently. So I look forward to hearing all 
of the witnesses today. And Mr. Chairman, once again thank you 
very much for having this very important hearing today. And I 
yield back the balance of my time.

    [The prepared statement of Hon. Michael Michaud appears in 
the Appendix]

    Mr. Roe. I thank you, Mr. Michaud. At this time I would 
like to introduce our first and only panel today, and I want to 
thank each and every one of you for being here with us this 
morning.
    First we have Retired Brigadier General Gary Profit, Senior 
Director of Military Programs at Wal-mart . And thank you for 
your service. Mr. Sean Kelley, Naval Academy Graduate, Senior 
Staffing Director for the Cloud and Enterprise Group as well as 
Military Recruiting at Microsoft Corporation. And Ms. Maureen 
Casey, the Managing Director for Military and Veterans Affairs 
at JP Morgan Chase. We next have Mr. Jim Amos, Captain Amos, I 
think two tours in Vietnam, the Chairman of the Tasti D-Lite 
and Planet Smoothie. A little cool for that today, Captain, but 
I would take one if you offered it. He is here on behalf of the 
International Franchise Association. Lastly we have Mr. Ross 
Cohen, the Senior Director of Hiring Our Heroes at the U.S. 
Chamber of Commerce Foundation. Each and every one of you, 
thank you for being here.
    Your complete written statements will be made part of the 
hearing record and each of you will be recognized for five 
minutes. And we will not cut you off right as the red light 
goes off, but try to begin wrapping up your testimony at that 
time. Let us begin with General Profit, sir. You are now 
recognized for five minutes.

              STATEMENT OF GENERAL GARY M. PROFIT

    General Profit. Chairman Roe and Ranking Member Michaud, 
and members of the House Committee on Veterans' Affairs, on 
behalf of Wal-mart Stores, Inc. I want to thank you for the 
opportunity to join you today to talk about veteran hiring.
    Wal-mart has a rich history with veterans, those continuing 
to serve, and military families. Arguably it begins with 
Captain, U.S. Army, Sam Walton, who founded Wal-mart over 50 
years ago. Through the years the legacy has been enriched by 
countless others and the 100,000 veteran associations and 
150,000 veteran and military family associates who are part of 
the current generation at Wal-mart . At Wal-mart we are 
thankful for their service and sacrifice and we strive to 
support their heroism. Right now we know that one of their 
biggest needs is employment and gaining the tools necessary to 
prepare for a career outside of the military.
    Besides being the right thing to do, veteran hiring is also 
good for business, as you said Mr. Chairman. We believe 
veterans and military families represent the largest diverse 
talent rich pool in the world and are an essential of the next 
generation at Wal-mart . Their value begins with a rock solid 
foundation, a proxy for which might be the seven Army values I 
lived for over 31 years: loyalty, duty, respect, selfless 
service, honor, integrity, and personal courage. It is 
complimented by the nation's huge investment in skills training 
and leader growth and development. Frankly, who would not want 
to hire them?
    But there must be a sense of urgency associated with all of 
that. 2.6 million post-9/11 veterans have left the service and 
in the next five years one million more will leave. About half 
of them are between the ages of 18 and 34 and unemployment for 
these younger veterans has often been more troubling than for 
their non-veteran counterparts.
    So at Wal-mart we decided to do our part and launched the 
Veterans Welcome Home Commitment last Memorial Day. Veterans 
who meet the job requirements and have been honorably separated 
from active duty within the last 12 months have a job at Wal-
mart if they want one. Wal-mart has a host of opportunities at 
our stores and clubs across the country as well as select 
opportunities in our distribution centers and main offices. If 
you served and sacrificed for your country you should not have 
to fight for a job when you get home. We believe that in the 
course of the next five years we will hire more than 100,000 
veterans.
    Since full implementation on Memorial Day we have hired 
nearly 30,000 veteran associates. These jobs range from part-
time hourly, to salaried management, from Wal-mart stores and 
Sam's Clubs, to distribution centers and transportation 
offices, and to the corporate headquarters.
    One aspect of this commitment of which we are most proud is 
the Veteran Champion Program. This program is a six-week 
onboarding process to support the transition and integration of 
the new veteran associates into their new work environments. It 
is guided by an associated drawn preferably from a similar 
experiential portfolio.
    In addition to employment we also strive to understand and 
address some of the specific and special unmet and undermet 
needs faced by veterans and families. Through the Wal-mart 
Foundation we are committed to a $20 million campaign through 
2015 and are focused on access to education, job training, and 
reintegration resources. Additionally as part of our holiday 
giving we announced on Veterans Day a $1.5 million grant to 
Operation Homefront Home for the Holidays Program and a 
$500,000 grant to the Fisher House Foundation Sponsor a Family 
Program. The grants provided toys, meals, and lodging to 
military families in greatest need of support and helped 
hundreds of active duty servicemembers come home for the 
holidays.
    We salute America's heroes. We are honored to have the 
opportunity to employ them, to learn from them, and to support 
them and their families in every way we can. Through career 
training and job opportunities we are helping prepare our 
troops for successful professional lives both during and after 
their service to the military.
    Thank you and I appreciate your leadership and for holding 
this hearing. I appreciate the opportunity to testify and am 
prepared to answer any questions.

    [The prepared statement of Gary M. Profit appears in the 
Appendix]

    Mr. Roe. Thank you, General Profit. Mr. Kelley, you are 
recognized for five minutes.

                    STATEMENT OF SEAN KELLEY

    Mr. Kelley. Thank you, Chairman Roe, Ranking Member 
Michaud, and members of the committee. It is an honor to 
testify today to discuss how companies like Microsoft partner 
to maximize civilian career opportunities for our returning 
veterans.
    My name is Sean Kelley and I am the Senior Staffing 
Director for the Cloud and Enterprising Engineering Group at 
Microsoft and the leader of our company wide military 
recruiting efforts. As a military veteran and third generation 
Navy family member I share this committee's passion and 
commitment to support employment opportunities for military 
veterans.
    Microsoft has had a longstanding commitment to supporting 
veterans. Our military community has grown into a vibrant 
organization which now boasts seven chapters nationwide. This 
organization advises Microsoft leadership on broad ranging 
topics, from benefits for our Guard and Reserve employees, to 
special events. This spirit of community has fueled the success 
of our military recruiting initiative, which we have branded We 
Still Serve.
    In the community we have been early participants in public 
private partnerships seeking solutions to the challenges of 
veteran unemployment. Through our Elevate America Initiative, 
Microsoft partnered with six non-profit organizations to 
provide skills training, job placement, and support services to 
veterans and their spouses. Microsoft's commitment to this 
effort totaled $12 million in cash, software, and other 
services.
    Also, Microsoft partnered with the U.S. Department of Labor 
to distribute 10,000 free technology skills training and 
certification packages to veterans around the country. These 
industry recognized certifications provide portable job 
credentials.
    But what I am most excited about today is Microsoft's 
Software and Systems Academy. Any career transition is 
difficult but as veterans approach the end of their military 
careers it is not always clear to them how their skills will 
apply to jobs in the private sector. Thanks to the Vow to Hire 
Heroes Act of 2011 sponsored by Chairman Miller and Senator 
Murray, servicemembers may begin the transition process before 
their separation from the military, much sooner. The Microsoft 
Software and Systems Academy is designed to meet such demand.
    The goal of the academy is to create a seamless and 
successful military to employment transition at no cost to the 
servicemember. It provides industry certification testing and 
college credit for those in service while they are still in the 
early phase of transition from their military to their civilian 
careers. For the curriculum Microsoft partnered with a local 
university to create a rigorous 16-week technical training 
course that military members are enrolled in while still on 
active duty. Soft skills, interview practice, and resume 
preparation are taught, and each student receives a mentor from 
a corporate sponsor and exercises to practice their new skills. 
MSSA operates on base in conjunction with DoD education and 
transition program partners. With command authorization 
servicemembers attend the course at their place of duty during 
their transition phase.
    I am happy to report that servicemembers who completed the 
MSSA pilot program were offered high paying career 
opportunities, many six figures, at either Microsoft or Launch 
Consulting, a veteran-owned business partner. Alternatively 
some graduates use their new skills to find technology jobs on 
their own or to pursue a four-year degree in computer science.
    As the program reaches additional bases around the country 
we will guarantee job interviews to those who successfully 
complete it, a critical step between acquiring any 
certification and acquiring meaningful employment. We are 
confident that graduates of the program will be well prepared 
to compete for jobs in the vibrant growing sector of the 
economy.
    Each time I look into the eyes of a transitioning 
servicemember I am that much more motivated to find new ways to 
open doors to technology for my fellow veterans. Here are a few 
recommendations to enhance the private sector's ability to 
employ more of our veterans, which I explain in detail in my 
written testimony.
    First, enhance the G.I. Bill language and funding for STEM 
and computer science related degrees. Provide access to contact 
information of veterans attending college on the new G.I. Bill 
through a confidential opt in solution to encourage stronger 
employment opportunities and alignment to STEM degrees. Broaden 
the impact of programs like MSSA around the country by 
encouraging top down support from all service branches for on 
base programs. Encourage uniformity in tuition assistance 
across military branches to reduce the complexity and road 
blocks for servicemembers.
    In closing let me emphasize that military veterans are a 
national treasure. Microsoft is fully committed, as am I, to 
continue to innovate, invest, and participate in the circle of 
solutions that bring our military veterans to family waged 
careers of the future. Now is the time to act to accelerate 
progress by aligning our resources behind proven concepts that 
lead to high paying jobs in the new economy.
    Thank you for your commitment to veterans. I look forward 
to answering your questions, and I thank you for allowing me to 
share my story and Microsoft's commitment to our nation's 
veterans.

    [The prepared statement of Sean Kelley appears in the 
Appendix]

    Mr. Roe. Thank you, Mr. Kelley. Ms. Casey, you are 
recognized for five minutes.

                   STATEMENT OF MAUREEN CASEY

    Ms. Casey. Thank you. Chairman Roe, Ranking Member Michaud, 
and distinguished committee members, thank you for the 
opportunity to testify about JP Morgan Chase's military and 
veteran employment initiatives. There is no group our firm 
holds in higher regard than servicemembers and veterans. We 
cannot thank them enough for their service.
    This hearing comes at a critical time. Given the rising 
tide of transitioning servicemembers, JP Morgan Chase has 
dedicated significant resources to build a comprehensive 
program focused on veteran employment, education, and housing. 
Since 2011 JP Morgan Chase is extremely proud to have hired 
more than 6,300 veterans, and still counting. The private 
sector has learned a great deal about the benefits of hiring 
veterans and we are delighted to share four lessons we have 
learned about how we do it.
    First, public and private sector collaboration is crucial. 
Second, it is critical to bridge the knowledge gap between 
civilian and military cultures. Third, we must help newly hired 
veteran employees develop a connection to our firm from the 
very start. And lastly, education and training are critical to 
employment success. I will summarize these points from my 
written testimony.
    First, collaboration is critical. JP Morgan Chase launched 
the 100,000 Jobs Mission in March, 2011 with ten other 
companies. Our goal to hire 100,000 veterans by 2020 has 
already been surpassed. In less than three years the coalition 
has hired nearly 117,500 veterans. Given the momentum we have 
doubled our goal to 200,000 hires by 2020. Today the coalition 
is 131 companies strong, representing virtually every industry. 
Our goal is to significantly grow the coalition and the 
response has been overwhelmingly positive. Employers can join 
by visiting our veteranjobsmission.com, where leading practices 
can also be found.
    Second, bridging the knowledge gap. JP Morgan Chase's 
veteran employment program focuses on the entire continuum, 
recruiting, mentoring, and retention. To bridge the knowledge 
gap we established a military recruiting team, many of whom are 
former military and current Guard and Reserve members. This 
team helps to translate applicants' experience and offer 
interview advice. Public sector programs are also very 
important to our recruitment strategy. We work with national 
and state programs through the Departments of Defense, Labor 
and Veterans Affairs, the service branches, and the National 
Guard and Reserve. While not an exhaustive list we have hired 
candidates through each of these partnerships. Notably JP 
Morgan Chase recently hosted a constructive private sector 
coalition meeting with Defense Secretary Hagel to discuss ways 
to better align transitioning servicemember initiatives.
    Thirdly, developing an organizational connection from the 
start. Mentorship programs are vital to successful transition. 
JP Morgan Chase programs include our employee networking group 
``Voices for Employees that Served'' where veterans help 
veterans understand corporate culture; Pathfinder, inspired by 
military specialists who navigate unknown terrain to help 
veterans establish career goals; Body Armor to Business Suits, 
to help new hires build an immediate connection to our company. 
Importantly our employee programs include military spouses who 
also shoulder the servicemember's sacrifice. And we know the 
knowledge gap is a two-way street, so we developed Military 101 
to teach our civilian colleagues, including senior leadership, 
about military culture.
    Finally, supporting veteran education is another key 
element to our strategy. JP Morgan Chase co-founded Syracuse 
University's Institute for Veterans and Military Families. The 
program offers tuition free training and certification in 
technology, human resources, and other studies.
    As we know, veterans can face unique challenges in 
educational settings. With this in mind I am extremely proud to 
announce today that JP Morgan is committing $1 million to 
expand veteran programs at educational institutions. Initially, 
grants are being awarded to Florida State College at 
Jacksonville, the University of Texas at Arlington, University 
of South Florida, and San Diego State University.
    Ultimately our collective success will be measured by how 
well the private and public sectors can work together to help 
transitioning servicemembers and veterans. JP Morgan Chase 
looks forward to continuing our work with Congress to position 
veterans and their families for long term success.
    Thank you very much for your attention to this important 
and timely issue. I look forward to your questions.
    Mr. Roe. Thank you, Ms. Casey. And Captain Amos, welcome 
home. And you are recognized for five minutes.

                     STATEMENT OF JIM AMOS

    Mr. Amos. Thank you very much, Chairman Roe, Ranking Member 
Michaud, members of the committee. Thank you for inviting me to 
testify today on successful private sector programs for hiring 
veterans. My name is Jim Amos. I am Chairman of Tasti D-Lite 
and Planet Smoothie. I am a veteran of the franchise industry 
with past experience as CEO of Mailboxes, Etc., now the UPS 
Store, and other franchise companies. I am also a military 
veteran, a former Marine Corps Captain with combat tours in 
Vietnam, and past Chairman of the International Franchise 
Association. And it is on their behalf that I am sharing these 
comments with you this morning.
    With nearly one million veterans transitioning out of the 
military service over the next five years, it is more important 
than ever that we help veterans reintegrate into the civilian 
economy. It is both an economic necessity and a moral 
obligation for our country, in my view. Franchising is a large 
and diverse business community that operates using the 
franchise business model or business format franchising. And 
franchising entrepreneurs open their own businesses and they 
purchase the rights to use trademarks, products, and business 
strategies of a proven franchise business. Franchise owners are 
typically highly motivated individuals who are natural problem 
solvers and successful franchise owners normally exhibit 
excellence in the execution of business plans. Above all else 
veterans possess the leadership skills and the ability to 
execute plans that are necessary to run a successful business 
and incidentally to persevere through difficult economic times, 
as we have recently experienced.
    For nearly 40 years I have been privileged to both create 
and support programs for hiring veterans. And what I have 
learned is that these young men and women are clear examples of 
American exceptionalism. They are true American heroes who 
bring back security clearances and training and character and 
passion and dedication and a get it done mentality that frankly 
any company should appreciate and want to have as a human 
asset. I have learned in my own career that spreadsheets and 
net present values can tell you the history of a company when 
you are doing due diligence on the business itself. But it is 
the people that is going to tell you its future.
    Recognizing that franchising is a great fit for 
entrepreneurial veterans the International Franchise 
Association launched the Veterans Franchising Initiative, or 
VetFran, in 1991. VetFran is an industry wide initiative to 
encourage franchise companies to both hire veterans as team 
members and recruit them as franchise owners. As part of 
VetFran 618 franchisors offer special incentives to qualified 
veterans who purchase franchises. And these incentives can 
range from thousands of dollars in inventory to special 
financing for equipment, discounts on initiative franchise 
fees, and many other broad benefits. As an example, when I 
first became Chairman and CEO of Mailboxes, Etc. I followed the 
guidance put in place by VetFran and as a result we focused on 
hiring programs and programs to create benefits and incentives 
for veterans. And as a results hundreds of veterans became part 
of the MBE/UPS community.
    So before I go into the general results I would like to 
offer a couple of things just to level set the problem. There 
are roughly 23 million veterans today in our country, 3.7 
million are under the age of 39, and 1.5 million roughly are on 
active duty, another 1.2 million in the Guard and Reserve.
    There are 2 million children in these households with 95 
percent being under the age of 12. And I can tell you as all of 
the folks sitting here on this panel that repatriating these 
men and women, the challenges that are associated with it, and 
the needs within their family levels are just absolutely 
enormous. A survey of VetFran members reveals that the program 
itself has achieved some significant results. In 2011 IFA 
launched Operation Enduring Opportunity that campaigned to hire 
and recruit as franchise business owners 85,000 veterans, 
wounded warriors, and their spouses by 2014. In a report on 
Veterans Day in 2013 we saw that the franchise industry had 
nearly doubled its hiring target and since 2011 we have hired 
over 151,000 veterans that have started careers in franchising 
including 5,192 veterans that have been recruited as franchise 
owners.
    To assist veterans in opening franchise small businesses, 
Congressman Bill Flores introduced the Veterans Entrepreneurs 
Act of 2013, legislation that provides a tax credit to 
qualified veterans worth up to 25 percent of the initial 
franchise fee. When coupled with the incentives offered by 
franchise systems as part of VetFran, this tax credit will go a 
long way towards helping veterans open new businesses. The 
franchise community has already demonstrated a record of 
success in implementing veterans hiring programs and this 
legislation will help veteran entrepreneurs realize their 
dreams of owning a small business.
    The franchise community has been successful in hiring and 
recruiting veterans but there is still a great deal of work to 
do to serve these veterans who have served us honorably. Far 
too many veterans are unemployed and others lack the support 
they need to successfully transition into the civilian economy. 
It is an imperative that the private sector continue to build 
on its recent success and work as best it can with policy 
makers here in Washington to improve hiring veterans.
    And then I just might add as an aside that for my brothers 
and sisters that came home from Vietnam, we came home to a 
nation that was really interested in leaving an unpopular War 
behind, and by proxy we left the veteran behind. And I do not 
think we should ever do that again. And that really is what the 
focus of these program in my view should be. I want to just 
thank you for the opportunity to testify today and I look 
forward to answering any questions you may have.

    [The prepared statement of Jim Amos appears in the 
Appendix]

    Mr. Roe. Thank you, Mr. Amos. I now recognize Mr. Cohen for 
five minutes.

                    STATEMENT OF ROSS COHEN

    Mr. Cohen. Good morning, Chairman Roe, Ranking Member 
Michaud, and distinguished members of the committee. My name is 
Ross Cohen. I serve as the Senior Director of the U.S. Chamber 
of Commerce Foundation's Hiring our Heroes Program, and am an 
Army veteran of Operation Enduring Freedom. Thank you for 
providing us this opportunity to share our experiences 
regarding successful approaches to hiring veterans and military 
spouses.
    Since 2011 Hiring Our Heroes, working with many of the 
partners who are testifying with me today, have connected more 
than 21,600 veterans, transitioning servicemembers, and 
military spouses to meaningful jobs through more than 660 job 
fairs hosted in all 50 states, the District of Columbia, and 
Puerto Rico. Through employment workshops at these fairs we 
have provided expert job search and readiness training to 8,000 
more men and women.
    In March, 2012 we launched the Hiring 500,000 Heroes 
Campaign with a goal of getting business of all sizes to commit 
to hiring half a million veterans and military spouses by the 
end of 2014. I am pleased to report that more than 1,400 
businesses of all sizes have committed to hire 361,000 veterans 
and spouses and to date 247,000 hires have been confirmed.
    We are also developing a suite of online services to assist 
in the transition to the civilian sector. From our resume 
engine and eMentor programs, to Fast Track, and our military 
spouse LinkedIn networks, these tools make it easier for 
veterans to identify and achieve career opportunities.
    From the beginning we knew that our success hinged on two 
critical factors. First, the effort had to be driven at the 
community level. And through the Chamber's vast federation of 
state and local chambers of commerce we were able to reach 
employers of all sizes throughout the nation. Second, we had to 
work closely to bring these communities together by working 
with a wide array of public, private, and non-profit entities, 
including partners across multiple federal agencies and local 
governments, and other non-profit veteran and military family 
service organizations. Indeed we have forged key partnerships 
with the White House's Joining Forces Initiative, the U.S. 
Departments of Veterans Affairs, and Labor VETS, and several 
Department of Defense entities, including the Military Spouse 
Employment Program, the Army's Installation Command, and many 
others. More recently we collaborated with the VA to create a 
National Guide to Hiring Veterans that points employers to the 
most valuable resources available to assist them in the process 
of hiring and retaining veterans and military spouses.
    The value of these partnerships becomes evident at our 
hiring fairs where the entire community comes together. State 
and local chambers work hard to bring jobs from local 
businesses. Military officials, including from the Guard and 
Reserve components, frequently open up their facilities to host 
these events. The VA plays a critical role by making sure that 
veterans are utilizing their benefits. DOL and the American Job 
Centers provide ongoing assistance. And the Employer Support at 
the Guard and Reserve, the American Legion, and so many others 
provide invaluable resources in every state. And together we 
are making a difference.
    When we began our work in March, 2011 the employment 
situation was bleak. Post-9/11 veterans faced an unemployment 
rate greater than 12 percent. For veterans under 25 it was 
closer to 30 percent. One in four military spouses was 
unemployed. There is no doubt that for some the situation has 
started to improve. We have seen post-9/11 veteran unemployment 
fall below 10 percent, and unemployment for veterans under 25 
is down 10 points to approximately 20 percent. According to a 
2012 Department of Defense report, however, one in four 
military spouses remain unemployed. Indeed, we have a long way 
to go. The fact is 800,000 veterans were unemployed at the 
beginning of 2013 and we are about to see an unprecedented 
number of departures from the military, not including spouses. 
So the private sector needs to step up even more. Hiring Our 
Heroes is ready to answer this call. Not only will we host more 
than 200 hiring fairs across the country this year, we will 
focus our efforts by targeting communities with the greatest 
need and by continuing to develop our suite of online services 
so that veterans and employers anywhere in the world can 
utilize them. We will also strengthen our private public 
partnerships.
    One upcoming example is occurring next week where we will 
take part in a two-day veterans job summit at Fort Bliss, 
Texas. Hosted by the Army and in partnership with the VA and 
Department of Labor, the summit will feature seminars on the 
transition process, tools and best practices for employers 
looking to hire, and presentations from key private sector, 
military, and governmental agencies. The summit will culminate 
with a job fair for transitioning soldiers, veterans, and their 
spouses.
    Over the last three years Hiring Our Heroes has been proud 
to serve as a community catalyst bringing together our partners 
and our common mission. We will continue working together to 
achieve change in veteran and military spouse unemployment.
    Chairman Roe, Ranking Member Michaud, and members of the 
committee, I thank you again for the opportunity to testify and 
look forward to answering your questions.

    [The prepared statement of Ross Cohen appears in the 
Appendix]

    Mr. Roe. Thank you, Mr. Cohen, and all the panelists for 
your testimony. I will now yield myself five minutes. And I 
want to start just by reading a paragraph of Mr. Amos' 
testimony. ``When my brothers and sisters returned from Vietnam 
we were met by a nation so anxious to leave an unpopular War 
behind that by proxy we left the veterans behind as well. We 
should ensure that this never happens again.'' Amen to that 
statement.
    And I think it is not. I think this is a testimony to the 
fact that it is not. And I thank you all. Many times I will 
come to these hearings and leave in a depressed mood. This 
actually has elevated my mood and in Washington, that is doing 
something if you can elevate somebody's mood.
    I thank you for what each of your companies and the 
coordination you are doing with other companies that are not 
here that are equally responsible for that. I guess a couple of 
things that I want to ask about, and it is going to start sort 
of from the back door because as I left to be deployed I left a 
wife and a 12-week-old child behind. And you know, if I had not 
had some family support, so the spouses are an integral part. 
And much of the problem I think we have with PTSD and other 
issues are family issues and money issues. And a spouse having 
a job, or a veteran having a job, those problems go away. Many 
of those issues just go away. So I think that what you all are 
doing speaks volumes.
    I think one of the things that I, through all the testimony 
I read, that are the spouses not wanting to work? Or they 
cannot find work? Or they do not have the skills? Could 
somebody, maybe Mr. Cohen, you mentioned it twice, that that is 
the one thing that had not moved, the needle had not moved on 
the spouses. And I think that is where when you are deployed a 
lot of family issues begin to erupt and so forth. So anybody 
can take that question.
    Mr. Cohen. Thank you, Mr. Chairman. I think that it is a 
core issue that the private sector has really taken up in the 
past year, two years, this issue of military spouse employment. 
I would not put myself as an expert on the issue but I think 
some of the core issues are frequent moves and having to, as 
you said, sort of take care of the family while your loved one 
is deployed makes it more challenging. But I do think this is 
being, it is noted and I think being addressed aggressively 
now.
    Mr. Roe. Okay. Could any of you all take this question? 
What programs have we as a Congress passed that you all find 
very effective? And which are the ones that are not effective 
and maybe should as we go through this next year's 
appropriations process move the resources around to things that 
actually work? So I will just open it up to anybody that wants 
to jump on that.
    General Profit. If I could follow, sir, on Ross' comment. 
First of all, I would be remiss in not telling you, if I did 
not talk about military spouse and family issues I probably 
could not go home to my wife of 42 years who followed me around 
the world for many years and struggled to maintain a career 
despite the same kind of values foundation and skills clearly 
that I had. And one of the things that we have done at Wal-mart 
is to institute something that we try to take jobs for military 
families to careers and it is called the Military Family 
Promise. And basically it says that if your spouse is moved as 
a result of a military permanent change of station, we will 
find you a new job at that location. And I think what the 
attempt has been with the breadth of our corporate footprint to 
turn those military spouse jobs into actual careers. And one of 
the things that, a face on that is a young woman who has been 
with us for I think 18 or 20 years now and has served in 
different Wal-mart roles from Hawaii to New York. And so I 
think that that is testament to a commitment to those spouses 
and families that also serve our nation.
    Mr. Roe. Thank you. Anyone on the programs that we 
currently have out there? What you think is working and not 
working?
    Ms. Casey. Yes, Mr. Chairman, I would take that question. 
One of the programs that we at JP Morgan Chase are working with 
is Department of labor VETS and their American Job Centers. I 
think one of the things that as you have heard my colleagues 
speak to is really understanding what the challenges and needs 
are, whether we are talking about transitioning servicemembers, 
veterans, or spouses, and then trying to connect them to the 
opportunities that exist. So what we have done is through our 
work with the Department of Labor VETS looked at key 
opportunities that JP Morgan Chase may have, whether we are 
talking about in Texas or California or Florida, or Arizona, 
providing them with those key jobs. They will then utilize the 
resources that they have in those centers that are dedicated to 
veterans to scan the pool of talent that is there and then make 
referrals to us so that we can then connect them to 
opportunities in our company.
    Mr. Roe. Okay, I have just one brief thing and no answer 
because my time is expired. Is that one of the things is how do 
we make sure that the transitioning veterans that are going to 
separate know about this? Because I can tell you when Captain 
Amos and I left the military they said, ``Son, be sure the gate 
does not hit you, you know, where on the way out the front 
door.'' Nobody said where are you going, what are you doing, do 
you have a job, is there anybody home? Nothing. So we have got 
to be sure that we have a way to make sure that the separating 
servicemember knows where to get this incredible amount of 
resources that are sitting in front of our committee. My time 
is expired. I now yield to Ranking Member Michaud.
    Mr. Michaud. Thank you, Mr. Chairman. This question is for 
Mr. Kelley. And I want to thank all the panelists once again 
for your testimony today. How many locations does Microsoft 
anticipate establishing an MSSA program?
    Mr. Kelley. Well Congressman, our current intention is that 
by the end of this calendar year we would be in five locations 
around the United States. We are currently looking at how do we 
take this program to be a program that through the community 
college system and online could also be accelerated to, you 
know, far reaches of the U.S. that perhaps are not collocated 
with a base location.
    Because we are in the early phase right now what we were 
concentrating on in the pilot was to prove the concept that we 
could train members before they exit the service and employ 
them all, which we accomplished in the first cohort. And now we 
are looking at how fast can we replicate the model and take it 
nationwide.
    Mr. Michaud. Thank you. In your testimony today each of you 
described outstanding and highly successful programs that 
support veterans employment. Most of these programs you 
discussed are new programs. While veterans issues are at the 
forefront today in people's minds here and in Congress' mind, 
these programs, you know, will endure while they are at the 
center. But what happens when veterans fade away and are no 
longer on the front page of the papers? You know, the federal 
government, you know, has not, as you heard earlier, has not 
treated our veterans kindly, particularly the Vietnam Era 
veterans. And once it is no longer on the front page my big 
concern is what will happen beyond the current Wars in Iraq and 
Afghanistan? And what does the industry feel that we should do 
in Congress, or what should the industry do to make sure that 
Congress does not let our veterans fall behind and become a 
back page story instead of a front page story? And I would ask 
each of the panelists if they could briefly make a comment.
    General Profit. Well first of all I share your concern and 
the sense of urgency that we should all feel about achieving 
something that certainly we did not do when those returned from 
Vietnam. If I could offer one I believe that we would be well 
informed by a national strategy that better leverages the very 
real complementary value that the private and non-profit 
sectors bring to the public private partnership and the 
responsibility to support those who have served and sacrificed 
for all of us. And despite the real advances in robusting that 
partnership, I do not believe we have achieved an optimum level 
of integration and synchronization that would actually support 
our interest in renewal in the economy and the interests of 
those who have served and sacrificed so much for this nation.
    Mr. Kelley. Congressman, there are two suggestions that I 
have and both of them come from my lens as a talent acquisition 
leader in the technology industry. And I would say first 
continue to focus on investment in education. So any G.I. Bill 
enhancements, support for STEM education that would encourage 
long term pipelining of talent into what really is all 
industries are becoming technology industries now, and I think 
that that has a long term payoff, that education investment.
    The second is upon transition I believe that the military 
veterans are the most codified human resource asset we have on 
the planet. And today we still allow that resource to walk out 
the door and we lose this amazing asset of information that 
could drive the economy. The specialties that people have 
learned, the education, their experiences. And if we could find 
a way to harness that and channel our veterans over the long 
term toward high paying jobs, ways to contribute to the 
nation's success and economic prosperity we think those would 
be two areas that would have big payoff.
    Ms. Casey. Congressman, thank you. I think hearings such as 
this are a great opportunity to continue the dialogue and 
highlight this issue. I think the other thing that we need to 
remember is that servicemembers and their families do not come 
home to a federal agency, they come home to our communities. 
And JP Morgan Chase, we are in 25 states. We have 5,400 
branches nationwide. And we know that these servicemembers and 
their families are coming home to our communities. So what can 
we do to continue to raise awareness? Mr. Chairman, you spoke 
about that awareness issue. How do we ensure that they are 
informed consumers and also that our communities are prepared 
to provide the support and services that they need when they 
return? So we are trying to do that throughout all of our 
markets to really take it down to the branch level and work 
within our communities to make folks aware that things like 
veteranjobsmission.com exist, where 131 companies have 
committed to hiring veterans. And that there are resources 
available to spouses. But I think that all of the work that you 
do in forums like this is very helpful to keep it on the front 
pages. Thank you.
    Mr. Amos. Congressman, I would like to thank you for the 
question because I think it is the seminal question. And I 
think the needs are both organizational and they are about 
communication. Nearly 40 years ago when I walked out the back 
gate at Quantico, Virginia I felt like Captain America on one 
side of the gate and on the other side I did not know who I was 
or where I was going. I do not think we had the technology 
capacity to track a veteran, specifically to your question, at 
that point. But I will tell you this, I had a conversation with 
General Shinseki just a few months ago and we do not have that 
capacity today. We still cannot find these young men and women 
when they leave to help them meet some of the challenges that 
they have.
    So I would say this having spent the last 35 years in 
meetings and listening to veterans, their spouses and children 
in programs, there are hundreds, hundreds of organizations 
trying to meet the individual needs of returning veterans 
around this country, including what our government is doing. 
They are all disparate. They are all funded separately. Some 
are non-profit, some are profit. There are egos involved. There 
are organizational egos involved. So there are a lot of 
challenges to really, truly meeting the need of the veteran. 
Because this cause sounds great to everybody, and everybody 
wants to participate until, as Chairman Roe pointed out, the 
guns go silent. And then often the support goes silent.
    And so what I would suggest like Mr. Reagan did in 1982 
with small business, hold a summit. Pull all these disparate 
pieces together and talk about coordinating this effort so that 
there is a clearinghouse that when a veteran walks out the gate 
he or she can press a button and find all the needs there in 
terms of someone to talk to. The needs we are talking about for 
these families? When we deployed, we deployed for 13 months at 
a stretch. During World War II it was for the duration. Now 
these young people are going back five and six tours at a time. 
You talk about jobs for the spouses and homes that they go to, 
I moved eight times in nine years in the Marine Corps. Now they 
are doing that, I mean, it is just so difficult to hold these 
families together. They need jobs, number one. They need career 
counseling. They need marital counseling. They need a lot of 
help. And I think we need to try to coordinate the organization 
and the communication for these people in one place if at all 
possible so they can get that immediate need. Thank you.
    Mr. Cohen. Thank you. Congressman, I will conclude by 
saying I am cautiously optimistic. And the reason I am 
cautiously optimistic that when the guns go silent we will 
still have the energy to address this issue. Because the folks 
who are on this panel here representing some of the largest, 
most influential companies and associations in the country. And 
the experiences of the past 2 years, I think to some of the 
points made, I think cannot be lost. So our challenge is, our 
opportunity is, for all of the reasons people have said, this 
is not a hard sell. People want to hire veterans. They know 
that veterans and military spouses make outstanding employees. 
And we have learned a lot of lessons over the past several 
years, over the past decades. The challenge we have now is 
making sure that those lessons get deeply, deeply embedded in 
local communities across the country over the next months and 
years to come.
    Mr. Roe. Okay, thank you Mr. Michaud. Mr. Denham, you are 
recognized.
    Mr. Denham. Thank you, Mr. Chairman. Let me first start by 
thanking Wal-mart . Two years ago Mr. Walz and I, along with 
Senators Manchin and Kirk, started the Veterans Jobs Caucus and 
Wal-mart was one of the first companies to step up and really 
show a huge impact in hiring veterans. And while we have 
250,000 servicemen and women returning home every year for the 
next 5years, 100,000 is a huge, huge goal and we thank you for 
your commitment in doing that.
    Let me ask you, you know, as you are looking at hiring 
veterans, what is the generational breakdown that you are 
looking at? Are they mostly post-9/11 veterans? Or are you 
seeing older veterans that are looking to come to Wal-mart for 
the first time and start a new career?
    General Profit. Thank you very much for recognizing the 
important work that we think we do with the Caucus. As was said 
before, we are in this for a long haul. We have been in this 
since the company was founded. And I think it is important 
work.
    Our focus, because we think they are the most vulnerable, 
is on those from 18 to 34. With that said, we know that joining 
our ranks over the course of time and certainly since the 
inception of the Veterans Welcome Home Commitment on Memorial 
Day that we have had people from every generation join us. And 
so we are not dismissive of any of them. Wal-mart is a really 
big place and we essentially have an appetite for talent across 
our enterprise. And so we welcome all that think that they can 
play a role in the next generation.
    Mr. Denham. Thank you. And let me briefly discuss how I 
think, at least the vision that I would see as helping our 
veterans to find work. You know, when I left active duty I was 
amazed to find out that as a crew chief, as somebody who could 
work on some of the most sophisticated aircraft in the world 
that it was going to take me 3 years of training to be able to 
work at any airfield across the nation on less sophisticated 
aircraft. Because we just did not credential our military. 
Somehow that was going to create a competitive disadvantage for 
our recruiting offices.
    We passed that bill and I am proud to see that that is 
implemented into law. We are credentialing them. We are 
allowing them to utilize the skills that they gained on active 
duty. But I would say the next part of that vision would be 
once you get them credentialed to actually give you guys the 
ability to go out and market to those specific career fields. 
Understanding which career field you are looking for and 
contact those men and women 6 months before they transition. So 
I think part of our challenge is we are always trying to find 
out where somebody has been discharged, what state they have 
been discharged from, and where they go afterwards and do they 
come back to our home state? Rather than being able to market 
to them before they leave active duty, finding talent and 
really I think encouraging those men and women that they are 
going to have a job, they are going to have a home, they are 
going to be able to have a family as soon as they leave active 
duty.
    And so I think that is the next step. But I did have a 
question for Microsoft. What you are doing is a little 
different from what we have been trying to do internally. So 
rather than credentialing on the inside you are looking at 
private credentials and integrating backwards into that 
training process. Could you explain a little bit more on the 
differences between the two?
    Mr. Kelley. Absolutely, Congressman, thank you. The program 
itself, this was actually a very targeted effort around 
software testing jobs that, you know, unfortunately we did not 
have servicemembers that were ready for that specific 
discipline area. And my focus as a recruiting leader was to 
find, to bring all of the intangibles that come with military 
service, add a thin slice of, you know, essentially a crash 
course. And the beauty of this program is in 16 weeks whether 
you have a degree or not, regardless of the discipline that you 
had in the military, if your aspiration is to be working in the 
technology industry this opens that door. And one of our 
significant challenges, many servicemembers look at the banner 
called Microsoft, or pick any other technology company, and 
they do not see themselves as part of this industry. And we 
thought this would be a huge paradigm breaker in that regard. 
And, you know, with our leadership, to be able to see that we 
took a mechanic, to take somebody who is an aircraft commander, 
or somebody who was maybe an IT operations person in the 
military, and really just concentrate the learning and turn 
that into a job has been a breakthrough both just for people's 
belief that there are military members who can be participants 
in the STEM discipline areas at Microsoft or any other 
technology company. But we also have, you know, people get 
their Microsoft developer certifications while on active duty, 
and we have participated in the White House IT certification 
efforts. So that is still another pipeline. We just felt like 
there was an opportunity, particularly pre-departure, to put 
this polishing on people's technology coding skills, which is a 
hard science area that we need for a lot of the jobs that we 
have.
    Mr. Denham. And if I could conclude with just a brief 
follow up, is it a shotgun approach of anybody who is 
interested in Microsoft? Or are you looking at ASVAB tests and 
specific career fields to say that is somebody that we know 
would succeed here?
    Mr. Kelley. Well what we, we definitely mapped out the 
bases around the nation, looked at more technical areas 
specifically and, you know, identified over 30,000 military 
members that we believe are, you know, easily able to go into 
this program and transition into the technology industry. So we 
did have targeting. But we also looked at frontline units that 
had very elite selection criteria, Airborne, other units, too, 
because we knew that there was rapid learning capability there 
for us to be able to target the accelerated learning path that 
we were, you know, putting in front of the participants. But we 
look at ASVAB scores, math testing, and then a selection 
process to get into the program.
    Mr. Denham. So an Air Force crew chief might have actually 
had a shot?
    Mr. Kelley. Absolutely.
    Mr. Denham. Thank you, I yield back.
    Mr. Roe. Ms. Brown, you are recognized.
    Ms. Brown. Thank you. First of all, let me just thank each 
and every one of you for your service and your commitment to 
our veterans. For decades the Federal Government has been the 
key gateway for veterans and good jobs and security but that is 
not the case anymore. I am pleased that Ms. Casey and JP Morgan 
Chase has announced that my hometown college, the Florida State 
College at Jacksonville will be one of the recipients of the 
grant to fund higher education programs for the U.S. military. 
And I need to do a disclaimer. Before I came to Congress I 
worked for the College for 16 years. And I know the community 
of Jacksonville's and of course the College's commitment to 
veterans. So I want to thank you and I want you to expound a 
little bit about that program in a minute. Because one of the 
problems that, let us say spouses are experiencing, because 
they have to move, maybe they are a teacher or a nurse, and 
they are certified in Florida. But if they have to go to 
another state, they have to go through the process again. So we 
need to work to make sure the certification will transfer. And 
of course I want to ask Wal-mart , and thank you all of you for 
your employment, but Wal-mart a lot of business, and you have a 
lot of private small business, what kind of program do you have 
to help those veterans do business with you? Because you buy 
everything. And so I am interested in that.
    But I cannot let this opportunity go by not to commend one 
of the companies in my district, CSX. They have twice been 
honored by the Employers Support from the Guard and Reserve for 
their hiring commitment to veterans. And in fact the railroad 
industry has a great record of hiring veterans. Twenty-five 
percent of the industry is veterans. And the Obama 
administration, along with the Joint Forces Initiative, and the 
VA, and the Department of Veterans Affairs, have started a 
program, Veterans Transportation Careers. And you know they 
have a lot of the logistical skills. And we are going to work 
to translate that to the workforce. So can you answer those 
questions? First of all, more about that program initiative, 
the education initiative?
    Ms. Casey. Thank you very much, Congresswoman. Yes, we are 
quite excited about this program as well. In developing these 
education grants we really looked at what the needs of 
transitioning servicemembers and veterans are. So it really 
goes back to bridging the gap. How do we make sure that they 
are prepared to be students again? Number two, how do we ensure 
that they have the support services they need to succeed? And 
number three, how do we educate the administration and the 
faculty about the needs of returning student veterans? And so 
the particular program at Jacksonville is really focused on 
professional development for the faculty and administration so 
that they can understand the military culture, understand what 
some of the needs might be. And then also building out their 
support services for veterans to position them for success. So 
whether that is additional tutoring services, other kinds of 
counseling and support services, anything that will position 
these veterans for long term success.
    Ms. Brown. Thank you. Wal-mart , businesses?
    General Profit. Thank you, Congresswoman, for the question. 
First of all one of the elements of the Veterans Welcome Home 
Commitment was the notion that Wal-mart can do a lot but Wal-
mart cannot do as much as if we all work together. And we 
recognize the importance of our supplier network and those with 
whom we do business and I think have importantly begun work in 
our supplier diversity function to take a look at veteran-owned 
businesses particularly and how we can include them as an 
important segment in that particular supplier base. So I think 
there is very important work being done both to track them and 
encourage them to become our suppliers.
    Ms. Brown. Thank you. I think that is about all the time I 
have. Once again, I want to thank all of you all for your 
service. But as I mentioned before, I want to just share with 
you all, I went to a restaurant. Let us just say it was a 
waffle house. And someone knew that I was in there and they 
told the lady that was serving me. The lady was a veteran. She 
told me she was homeless. And it just broke my heart. And she 
had no place to stay. And veterans like her need more than just 
finding a place to stay. The system is broken. And still, this 
lady still has not gotten the kind of help that she needs, even 
though I referred her. She needs more than a house. She needs 
the counseling component. She needs the educational component. 
So it really does take the whole team. So I want to thank you 
again.
    Mr. Roe. Thank you for yielding. Mrs. Walorski, you are 
recognized.
    Mrs. Walorski. Thank you, Mr. Chairman. And I just wanted 
to also thank and commend every one of you for sitting here and 
for what you are doing to lead the nation in this comeback of 
jobs for veterans. I am from Indiana, and we have a 
proportionately higher number of veterans in Indiana with the 
fourth largest Guard in the country. And Hoosiers definitely 
take up the call when called. But one question I have is when 
we hear about best practices and we hear a lot about, I call 
them P3s, we have used them a lot in Indiana, public private 
partnerships, they have worked and I have traditionally been a 
huge supporter of them. In our district, in Northern Indiana, 
we are heavy manufacturing, one of the largest manufacturing 
districts in the country. And 80 percent of those are small 
companies. So from your perspective, you folks are all 
representing large, huge companies. And I guess what can we 
take and translate down to smaller companies that would 
incentivize them to be involved? Because in my district many 
times when you say I am here, I am from the government, I am 
here to help, they are like, no thank you, shut the door, leave 
me alone, get off my back, and we will do fine. But when we 
talk about things like, the tax credit from Representative 
Flores and things like that, is this really something that can 
be federally driven? Things that will help incentivize smaller 
companies? Or how do you see it, since you are the experts here 
in the field? Anybody?
    Mr. Amos. Well first of all I would like to point out that 
when you talk about franchising although there are 
significantly large companies, billions and billions of 
dollars, they are all built on the premise of independent 
franchise owners. So all of it is small businesses. And all of 
the hiring that has been accomplished here through these 
VetFran programs have been done at the small business level. 
There is some employment that takes place at the corporate 
level in these businesses, but clearly the logwood here comes 
from small business. So any programs that can provide the 
relief for a small business owner, I mean, the Affordable Care 
Act was mentioned without discussing obviously the employer and 
employee mandate, but essentially if you want to respond 
broadly any tax relief at that level, any relief of the burden 
on the regulatory level for small business, the ability to 
hire, the incentive to hire. If I am a small businessman, or 
woman, and it appears to me that I have a Hobson's Choice, as 
an example----
    Mrs. Walorski. Mm-hmm.
    Mr. Amos [continuing]. Between paying a penalty or 
providing healthcare at that level, I am obviously going to 
matriculate to that place where I have more free capital to 
invest in my business that involves hiring as well as many 
other things, including opening new locations which create new 
employment and new tax dollars and new revenue. It is, to me, 
as a relatively simple individual in terms of how small 
business operates, that is not rocket science. It is just 
opening the way, which is why I talked about the summit on 
small business a while ago in conjunction with what we are 
talking about here. Because I think that is the way you offer 
relief and create incentives----
    Mrs. Walorski. Mm-hmm.
    Mr. Amos. [continuing]. For hiring to take place.
    Mrs. Walorski. Anybody else?
    General Profit. And if I could just offer, when Bill Simon 
talked at the National Retail Federation a year ago about 
American renewal, and he followed that up just the other day by 
talking to the U.S. Council of Mayors. And a very important 
element of that was our focus on U.S. manufacturing.
    Mrs. Walorski. Mm-hmm.
    General Profit. And we think that the time is right to put 
a special emphasis on U.S. manufacturing and we think we are 
investing in it and importantly have some very important goals 
that we want to meet. And so I think that to place a special 
focus and a special emphasis on that is very well timed. And we 
would certainly be willing to join that public private 
partnership and frankly think we already have.
    Mrs. Walorski. That is great.
    Ms. Casey. And I would just offer Congresswoman----
    Mrs. Walorski. Yeah?
    Ms. Casey [continuing]. That the other half of that 
equation goes back to a recurring theme that we have heard here 
today is around ensuring that veterans are informed consumers. 
We know that more than 50 percent of veterans are going to go 
to work in small business.
    Mrs. Walorski. Mm-hmm.
    Ms. Casey. So how do we do a better job at creating, 
matching the supply to the demand? Creating that connection of 
those that are transitioning out with knowledge and information 
about where the job opportunities are? So I think there is 
definitely room for improvement in that regard.
    Mrs. Walorski. I appreciate it. And General, let me just 
say that one of your colleague institutions, Sam's Club, does a 
phenomenal job in my district, in a place called Goshen, 
Indiana, they do veteran days. And I was grateful to 
participate in one a couple of years ago where it was, you 
know, refreshments and discounts and all kinds of things to 
attract in veteran families, highlighting things that families 
would need and be in need of, that were, you know, specifically 
reduced for folks that had a veteran card type thing. And 
celebrating that they were a veteran, with red, white, and blue 
decorations in the store, and cake, and all kinds of things for 
their kids. It was awesome. And it is just one of the ways, I 
think, to your point, Mr. Amos, and continually educating and 
advocating for veterans coming home that they have done the job 
we have asked them to do. So to all of you, I just, I so much 
appreciate your comments and how we can translate them back 
into our districts. Thanks so much for being here. Thank you, 
Mr. Chairman.
    Mr. Roe. I thank the gentle lady for yielding. Mr. Takano, 
you are recognized for five minutes.
    Mr. Takano. Thank you, Mr. Chairman. I will start off with 
Mr. Kelley. Mr. Kelley, as a former community college trustee 
for 23 years and also as a teacher in the high schools, you 
know, this is where I come from. Do you think our 
servicemembers are receiving enough counseling and information 
about their futures and transitions out of the service? And are 
they receiving this counseling and information early enough?
    Mr. Kelley. Congressman, thanks for the opportunity to 
comment. Definitely not. I think this is one of those long 
standing issues that has gotten a lot better with the VOW Act. 
But I think we have this opportunity to make it part of the 
leadership responsibility of the military to understand that 
everyone is going to transition. And, you know, we have had 
such pressure on those unit leaders to be mission ready and we 
need to transition that thinking to say that it is part of our 
opportunity to counsel our young members of the military, or 
those that are nearing retirement, that the planning needs to 
start 18 months out in order to align for their transition.
    Mr. Takano. Thank you. So we need to begin not with a crash 
course at the end, but at the beginning and throughout. Can you 
talk about the partnership you have started with community 
colleges and how you would like to expand this partnership? And 
what makes community colleges logical partners?
    Mr. Kelley. In our experience, we have worked with 
community colleges in our Elevate America Program, with Project 
Succeed at Bellevue Community College right near Microsoft. We 
are looking at partners in the community college system because 
we, particularly with our 16-week academy program, there is 
more flexibility with the leaders in the community college 
system at this time to look at a unique program and 
responsiveness at the pace we are trying to roll this out. And 
the locales near our bases, many of them are already on our 
military installations, which is an accelerator as well.
    Mr. Takano. Wonderful. Wonderful. Thank you for that. Mr. 
Amos, I want you to know that I am, as the ranking member on 
the Subcommittee on Economic Opportunity I am also the lead 
cosponsor of Mr. Flores' bill to provide the tax incentive for 
franchising. I am a great admirer of franchising. I think it is 
a great, entrepreneurship with training wheels, it gives people 
some guidance. Along the lines I asked Mr. Kelley, the question 
that I asked Mr. Kelley, that I posed to Mr. Kelley, about 
preparation throughout the servicemember's career, could we do 
more in terms of getting entrepreneurship in the minds of these 
servicemembers? For instance, is there a way for us to also, I 
know we can use our tax sheltered deductions, first of all get 
the servicemembers to be thinking about that sort of saving, 
but is there currently a way for a servicemember to parlay 
those savings, part of them, with their contributions into 
maybe a down payment on a franchise?
    Mr. Amos. Well there are incentives that were created 
through programs like VetFran. I think that that path is almost 
unintelligible to the person who is living in the military 
today, however. And so the education that you are talking about 
that should begin ahead of time, in all likelihood does not. 
And I would like to point out that sometimes the military has 
the ability, no pun intended here, to shoot themselves in the 
foot in these issues as well. And I would say the reason why is 
because the mission orientation is so intense and so focused 
that if you are a regular officer, as I was, or someone that is 
in the military as a career, or an intent to have a career, all 
of the infrastructure within the military is designed to focus 
on people who, and get people to stay in and make it a career. 
And so there is very little discussion of people that are 
leaving. And they are not set up to have that discussion. And 
when the decision is made to leave internally if people were 
going to be perfectly honest about themselves it is almost as 
if their back has turned on someone who has decided they are 
not going to have the same goal. And I am just suggesting that 
internally inside the military itself there is almost an 
implicit lack of attention paid to people when they choose to 
leave.
    Mr. Takano. So there is not a discussion about a certain 
amount of deduction each month, and the compounded gain could 
someday be used on a down payment on a franchise?
    Mr. Amos. No.
    Mr. Takano. So you do not have a choice, you know, there is 
choices other than transition into a salaried job, you could 
own a business someday. We do not get them to think about this 
early on in their career?
    Mr. Amos. Not today. Not in the present environment.
    Mr. Takano. Yeah. Okay, great. Thank you.
    Mr. Roe. I thank the gentleman for yielding. Mr. Wenstrup?
    Mr. Wenstrup. Thank you, Mr. Chairman. Thank you all for 
being here and trying to make such an impact on our veterans' 
lives. I appreciate that. There has been a lot of discussion. I 
am a Reservist, spent a year in Iraq. And I still drill. I was 
at Fort Lewis last year doing preventative medicine. I think a 
lot of the things of what we are talking about here is 
preventative medicine if we capture them early. I mean, you 
talk about all the pitfalls and problems of leaving the 
military and the stresses that are upon you, especially if you 
do not have a job. And one of the things I was encouraged about 
when I was at Fort Lewis last year is the effort to try and 
give some guidance and counseling to servicemembers that are 
getting out of the military. And, you know, this is the 
Veterans' Affairs Committee. And that really falls under Armed 
Services Committee where I think we need to make some changes. 
And I want your opinions on that because as great as it is to 
do all these things and we need to continue to do for veterans, 
you know, of all eras, that have been out there and are 
struggling, I think that we have greater successes if we 
capture them while they are still in uniform. Now Captain Amos 
you referred to the culture of the military as more towards 
stay in, stay in, stay in. So where do we, where do we start to 
engage heavily with those that said I am getting out when there 
is that sort of ideal of keeping them in the military? I mean, 
I would call it second career counseling, or what have you. And 
when I talk to veterans that are going to use their G.I. Bill I 
encourage them to study and make sure you get a skill that will 
get you a job when you are finished. I know, Mr. Kelley, 
Microsoft has been engaging with those that are still in 
uniform, if you care to comment on that. And Captain Amos, your 
opinion, too, on the dichotomy there, if you want to go ahead?
    Mr. Kelley. Congressman, I will crystallize the example of 
the graduates out of our program at Joint Base Lewis-McChord 
with the support of Colonel Hodges there, the Base Commander. 
You know, of the graduating class a number of them who felt 
supported, guided by their leadership actually have not become 
citizen soldiers and have signed up with the National Guard in 
Washington. I think this underscores the long term thinking 
that if we had that support in the leadership, and I do think 
this is an expectation that leaders would accept. It is not 
their mission focus now, but if we establish a leadership ethos 
in the military that has the long view, that says my, and I 
feel like leaders feel that accountability to their soldiers, 
and to say your long view is to help them have a life plan. We 
look at their whole life. We look at how their family is doing, 
their savings, their education. And we do it with concentrated 
focus while they are on active duty. And we just have to extend 
that horizon and also show the benefit, which is someone who 
leaves happily will end up potentially being a drilling 
Reservist that is also a critical part of our system.
    Mr. Wenstrup. It seems to me this is a conversation we need 
to have within the Armed Services Committee as well. Captain 
Amos?
    Mr. Amos. Well I agree with that entirely. And I think it 
is somewhat of a cultural issue. But I think the mission focus 
could be focused into a service or a department or an area that 
is focused on the life counseling. That works hand in glove 
with the private sector on the outside. Organizations and 
associations like the International Franchise Association that 
can talk to people so that there is a full range of discussions 
and counseling and outcomes that are there for that veteran by 
punching one button. It goes back to the summit we talked about 
a while ago, it seems to me. But yes, I, that is, that would 
be, I think that would go a long way to providing solutions in 
repatriation and transition.
    Mr. Wenstrup. And just one other quick question. Do you see 
it possible to truly have a, and I hope you do, an effective 
clearinghouse? You know, that would engage large corporations, 
small businesses, where people can go and say, hey, I have this 
skill, is there a job out there for me? And then the other way 
around? Anyone can take that.
    General Profit. Yes Congressman, first of all thank you for 
your continuing service. I think there is some very encouraging 
work going on the Department of Defense and in the services 
that suggests that frankly these discussions ought to occur at 
enlistment or commissioning. Because all of us are going to 
transition, whether it is at a career stage after many years, 
or after one enlistment. And I think discussions about how the 
military fits in to your larger life plan, as many have 
described, are happening. I do not think they are happening 
fast enough, and I do not think they are happening with the 
urgency to recognize the fact that the force is going to look 
far different in the not too distant future than it looks 
today. And I think we have to help those folks with the next 
stages of their lives. And I think the department is seeing the 
enlightened self-interest in all of that for a lot of economic 
reasons.
    Mr. Wenstrup. Thank you. And I am out of time, so I yield 
back.
    Mr. Roe. Thank the gentleman for yielding. Ms. Kuster, you 
are recognized.
    Ms. Kuster. Thank you very much. And I very much appreciate 
your testimony here today. Thank you all for your service as 
well. What I wanted to focus on is this issue about translating 
the skills because that is what I keep running into over and 
over at home. And I was really encouraged last week in a 
meeting with some folks from Home Depot on their initiative on 
hiring veterans. They talked about they have developed a 
partnership with Monster.com that would translate the military 
skills that are transferable to the civilian workforce. So we 
know that that is difficult right now because of the different 
terminology. But they have created a military skills translator 
available, it is homedepotmilitary.com. And you may be familiar 
with this. The online program allows applicants to enter their 
service pay grade and military job title and the computer will 
translate that experience into civilian skills that will allow 
the applicant to add those skills to a refined search to view 
available jobs.
    It seems to me, and I am very much in favor with my 
colleagues on both sides of the aisle of this public private 
partnership. And I particularly liked your comment, Ms. Casey, 
they do not come back to a government agency, they come back to 
our communities. But it seems to me that this is critical. 
Because a lot of the unemployment and this long term 
unemployment seems to be exacerbated by the way we do searches 
now with new employees. It is the computer that is looking at 
the resume and it is just looking for certain words. And no 
military person is going to put down teamwork, you know, they 
are going to put down their rank and the teamwork is going to 
be obvious. But if the computer is looking for teamwork we have 
got to help with that transition. I do not know if you have any 
comments, but is there anything that we can do just with this 
sort of almost technical problem that people have? And it is 
particular exacerbating for older workers. Because they are not 
going to use the words, the types of words that the computer is 
going to be looking for.
    Ms. Casey. If I may, Congresswoman? I think there is a 
couple of things. Number one, I think that involving the 
private sector earlier in the transition assistance process, 
where they are able to talk about the kinds of jobs that they 
have available, the skill sets that they are looking for, and 
inform that process. Right now many of the instructors in our 
transition assistance programs, and I should say many changes 
have been made and many advancements have been made in terms of 
the revitalization and revamping of the transition assistance 
program. But I think that having some input from the private 
sector so that they can advise what they are looking for would 
be very helpful. I think the other thing that we have seen at 
JP Morgan Chase is that it does take more than a computer 
program to do this, which is why we have that dedicated team so 
that we can look at the skill sets of our jobs and also look at 
the profile of the military talent that will match and then 
provide that. But it is really heightening the awareness. We 
talk about that 99 percent, one percent divide. It is educating 
our folks who are looking at military talent.
    We did something as simple as looking at the way we do our 
job descriptions. The first bullet typically would say, you 
know, four years of banking experience preferred. Well, many 
military are going to look at that and pass right through that. 
So if we make that, put it at the bottom of the pile instead of 
the top all of a sudden we are starting to see increased 
candidate applications for some of these positions. So I think 
it is really looking at all that we are doing across the 
spectrum in the course of sourcing military talent and making 
adjustments across the way.
    Ms. Kuster. That is great. Thank you.
    Mr. Kelley. The experience we had in a similar process on 
your westillserve.com Web site in 2009 we went through the 
process. A volunteer team of veterans at Microsoft spent over 
400 hours mapping the MOSs in the military to jobs at 
Microsoft. And I would say that the outcome of the Web site was 
a tactical outcome and the real strategic value was we created 
believers on both sides of that decoder.
    Ms. Kuster. Exactly.
    Mr. Kelley. We were able to go explain to military members 
that here is a vision that you can dream, and to our leaders 
and members of our recruiting organization we were able to 
point out the translation for them. And of course the tool has 
helped to make it easier for someone to find a job on our site. 
But the human connection, the cultural shift that occurred 
through that education I think was the main value.
    Ms. Kuster. Great. Well my time is up and I just want to 
thank you. And you can tell it is a bipartisan support. We are 
here to support you in any way that we can as well. Thank you.
    Mr. Roe. Thank the gentle lady for yielding. Ms. Brownley, 
you are recognized.
    Ms. Brownley. Thank you, Mr. Chair. And I have a couple of 
questions so I will try to be succinct. The first goes back to 
the chair's opening remarks about military spouse employment 
and trying to move the needle on that. I am wondering if we 
have any data on that so we sort of know what the unemployment 
rates are and the number of veterans who are unemployed. Do we 
have similar statistics for military spouses?
    Mr. Cohen. Congresswoman, there was a 2012 Department of 
Defense study that demonstrated that military spouse 
unemployment as of 2012 stood at 25 percent. And that is the 
most recent data that I am familiar with.
    Ms. Brownley. So way higher than----
    Mr. Cohen. Yes. And underemployment rates I believe 
somewhere in the 40 percents.
    Ms. Brownley. Very good. The next question I had was 
wondering if there are any statistics as we, and again thank 
you all for what you are doing, and as we move forward and move 
the needle on employing our veterans, are we also collecting 
data around what the average salaries are? Are veterans 
transitioning to the private sector and are better off than 
they were vis a vis their salaries than in the military? Do we 
have any data on that? No? It sounds like something that we 
should be collecting data on.
    As far as the, I am actually carrying a bill to extend the 
Work Opportunity Tax Credit. I think probably the whole panel, 
correct me if I am wrong, but I think you would all agree that 
it is beneficial. Can you comment on how critical it is to 
gaining employment for our veterans?
    General Profit. Congresswoman, thank you for the question. 
While I do not want to suggest that Wal-mart does not take the 
Work Opportunity Tax Credit when we realize it is available to 
us, we do not make hiring decisions based upon the availability 
of the tax credit. It is too important to get the right people. 
And so we do not base our decision making in that area on the 
Work Opportunity Tax Credit availability.
    Ms. Brownley. Any other comments?
    Mr. Amos. Well I think that is accurate but that does not 
mean it is not helpful, and that it does not provide a benefit 
that is attendant to making the right hiring choice.
    Ms. Brownley. I have heard some people say in businesses in 
my district as well that there are certain obstacles in 
obtaining it. Any suggestions for streamlining that? No? Well 
the last question that I have is based on survey results from 
veterans in franchising and a progress report. One of the key 
findings indicates that 80 percent of franchises surveyed are 
not aware of any tax credits available to employers that hire 
veterans. And I was just wondering, Mr. Amos, if you might be 
able to comment on that?
    Mr. Amos. Well I think that it is, first of all it is the 
newness of the program. And there is some, there is a 
requirement, I mean, there is not even any statistical support 
for it that I am aware of yet. So I think that that requires 
some communication and education to the greater franchising 
world that IFA will do and is doing today. I think that will 
help challenge, actually.
    Ms. Brownley. Thank you. I yield back.
    Mr. Roe. Thank you for yielding. Ms. Titus, you are 
recognized.
    Ms. Titus. Thank you, Mr. Chairman. Before I ask a question 
I would just like for the record to point out that there are 
two companies in my district in Las Vegas that have excellent 
programs for hiring veterans. They are very innovative. MGM 
Resorts has Boots to Business that has been very successful, 
and Caesars Entertainment has Enlisting Heroes. So we are proud 
of the work that they are doing, which is similar to what you 
all are doing and I thank you for that.
    I would like to focus my question on something that you are 
doing, Mr. Kelley, and that you commented on in your written 
testimony. I have been working on trying to get more students 
involved in the STEM fields, and especially minority students. 
I think that is the key to good jobs and being competitive in 
the global economy. And I know that you all certainly do that. 
And you wrote that you would recommend that the government 
enhance the rules of the G.I. Bill to incentivize STEM 
education. I would very much like to work with you on the 
specifics of that and see if we cannot get that done 
legislatively. But would you take a minute to kind of summarize 
for us what some of the recommendations are that you would make 
to improve that?
    Mr. Kelley. Congresswoman, one of the things that we did as 
we have evaluated what are the best odds to get into large 
technology companies? And all of us invest heavily, and 
Microsoft specifically, in hiring our college grads with 
computer science degrees. I also know, and my colleague Chuck 
Edward here in the audience runs our college recruiting 
organization, you know, we canvass hundreds of universities 
across the country. Our servicemembers actually choose 
sometimes to go to the least cost option, not the option that 
would most likely get them to the highest employment 
opportunity. So our top computer science programs, there is a 
large gap between what the G.I. Bill will pay for and even the 
yellow ribbon may not close it. And so we have talked about the 
yellow ribbon plus for STEM education to make sure that the 
servicemember is not making a purely short term economic 
decision. That they are really looking at the fact that these 
are upon graduation six figure salaried jobs in any of the 
technology companies. And the competitiveness as a young 
person, you know, they have five job offers at the time they 
graduate. And I want our veterans to participate in that very 
huge opportunity in the technology arena.
    Ms. Titus. Well let us talk about some ways to kind of get 
that done. Anybody else have suggestions along those lines? 
Thank you, Mr. Chairman. I look forward to bringing some of 
that back to this committee.
    Mr. Roe. Thank you. Mr. O'Rourke, you are recognized.
    Mr. O'Rourke. Thank you. And I would also like to thank the 
panel for their service, through them to their companies for 
what they are doing to hire veterans, and for the testimony 
today. And I want to thank the leadership of the committee and 
the staff for giving us this opportunity to hear from you.
    I represent the community of El Paso, Texas. At Fort Bliss 
we have 29,000 active duty. Within the community we also have 
over 80,000 veterans. And we also have nine percent 
unemployment. And so what you are saying today is very helpful 
for me as their representative to think through policy 
implications, efforts that we need to undertake even in our 
capacity in our districts to connect more of these veterans 
with their jobs. And I think the points about what we can do 
while they are still active duty are spot on. I mean, I think 
that is where we take it. And Dr. Wenstrup kind of compared it 
to preventative medicine. You know, taking the necessary steps 
ahead of time.
    And I also understand Mr. Cohen that in your opening 
testimony you referenced a Hiring Our Heroes event that you are 
going to have on February 4th at Fort Bliss in El Paso, Texas. 
So I just want to thank you for the Chamber's efforts in that 
regard and pose my first question to you. We had an event put 
on by the El Paso Workforce Board in the Fall of last year for, 
a hiring veterans event at the County Coliseum. We had 
somewhere close to 1,400 veterans come to search for a job and 
as far as we can tell we had only four placements out of that. 
Now I know that you cannot speak to the specifics of that, but 
given the success of the Hiring Our Heroes Program what are 
some best practices or some best outcomes that we should be 
looking towards? And perhaps apart from your efforts when we at 
the local level take these initiatives on we can begin to 
follow those so we can get better results.
    Mr. Cohen. Well thank you, Congressman. And I would just 
like to point out that your staff has been very helpful in 
getting the word out for the Fort Bliss Veterans Job Summit 
next week so----
    Mr. O'Rourke. Great.
    Mr. Cohen [continuing]. It has been another great example 
of public private partnerships working together.
    One of the things we have learned, and obviously I cannot 
speak to the event that you are discussing, that we learned 
early on is the importance of devoting a lot of resources, 
which we are part of the Chamber of Commerce's Foundation which 
makes us a 501(c)(3) non-profit, it is challenging to devote a 
lot of resources to metrics and tracking. So we have instituted 
a very comprehensive 180-day after any action process with 
phone calls, surveys, survey monkeys, you know, phone banking, 
etcetera. And I think it is challenging, I think that would be 
the first thing someone would have to do is, to really find out 
what those numbers are. It is, to me it sounds unlikely that 
only four people of those 1,400 received jobs but it is very 
difficult to know unless you really are able to dedicate the 
resources to a comprehensive tracking after the fact.
    Mr. O'Rourke. And to the other members of the panel I know 
that your businesses, and I think the General made an excellent 
point, you know, are hiring based on the best fit for that 
position and are seeking out veterans because it is the right 
thing to do and you are not doing it in response to a tax break 
or a benefit to the company, and I think that is really 
important for us all to understand. But Mr. Amos in response to 
a question posed earlier you were asked, you know, what more 
could we do on the government side to encourage more hiring? 
And you mentioned tax incentives and regulatory incentives. And 
I wonder if you and the other members of the panel could speak 
to some specifics? Perhaps a state that has successfully 
implemented something where your businesses operate and have 
found a very competitive environment that has made it easier to 
hire veterans? Or something that has yet to be proposed that 
could, again, everyone wants to do this for the right reason 
but could make it easier for people to do the right thing. So 
maybe, Mr. Amos, to start with you, you specifically said 
regulatory burdens. Are there specific burdens that would be 
lifted that would make this easier?
    Mr. Amos. You know, I think the simple answer is any relief 
at the line level particular for small business on the tax or 
regulatory side is enormously beneficial. Every dollar that a 
small businessman or woman puts back in their pocket can be 
used to open new businesses, particularly as it relates to the 
franchising world and small business, and for hiring. The 
reality is my friend Fred Smith at FedEx as an example likes to 
say that big business is the engine on the train and small 
business is the caboose. And he and I from conversations from 
time to time, I have said to him, look, you know, all business 
is just not created equal. The reality is every net job in 
America since the mid-eighties has come from small business. 
That is where the seeds are planted. So in answer to your 
question, I could fairly easily at the macro level I think go 
through some strong suggestions. Restructuring Sarbanes-Oxley, 
a lot of things that would offer relief at the line level, 
including issues that relate to energy policies and a lot of 
other things that do offer relief----
    Mr. O'Rourke. That affect hiring in general.
    Mr. Amos. Absolutely.
    Mr. O'Rourke. And I know my time is up so very quickly for 
the other panelists, anything specific to hiring for veterans 
that we could incentivize through federal policy?
    Ms. Casey. I think from our perspective and the theme has 
been talked about here earlier which is how do we do a better 
job of allowing the private sector to partner with our military 
bases and the federal agencies sooner in the process? There are 
some joint ethics regulations issues and things like that that 
make it somewhat challenging depending upon the perspective. So 
I think that anything that can be done to allow for that 
partnership to happen sooner would be very helpful.
    Mr. Kelley. And I have one very specific recommendation. If 
we look at the application of a veteran database that has all 
of the information, we look at the great work that the non-
profits that are hosting job fairs can do, the experience of 
someone walking in that door, it is daunting. So many 
companies. And the simple application of a dance card that says 
we have looked at your data, we know what companies are there, 
these are your six best people to talk to, would just reduce 
anxiety. The psychology of walking in that room, and I have 
been to hundreds of job fairs. And every time someone walks up 
and says, hey, I noticed Microsoft wanted to talk to me, I do 
not know why. And I am like you have to believe that this is 
your future and let me walk you through why I called you. And 
so if we could build a system that just said this is your dance 
card. This is who you talk to first. They are waiting for you. 
And on the other side there is a small list of people. That I 
think we close the gap in sort of what I call the serendipity 
of recruiting, which always feels great, I love it too, but it 
is not the most efficient way for us to get the most people to 
work. And you know, businesses, especially the small ones, 
cannot afford the investment that a larger company can make. 
And so to go stand at a job fair and get one resume, it is 
just, but if you can say I am going to give you six. If you 
come talk to those six you are going to hire three, and you can 
go back to work, it is a win.
    Mr. O'Rourke. Thank you. General, did you want to add 
anything to this?
    General Profit. No, I think they captured it. I could not 
agree more. The earlier we can have a conversation with these 
young people about their aspirations and their personal brand 
and where the gaps exist and how to fill them and that we care 
about them and we would like them to offer their value to us, I 
think, as I have told my colleagues in the DoD and in the 
services, back to an original point I made, I think this 
conversation needs to start at enlistment and commissioning. 
Because it is about the backside of the life cycle. And I think 
a lot of benefit would accrue to DoD and the services if we 
would take a more aggressive stance in that regard.
    Mr. O'Rourke. Thank you. Thank you, Mr. Chair.
    Mr. Roe. I thank the gentleman for yielding back. And I now 
recognize Ms. Brown for any closing comments she may have.
    Ms. Brown. Thank you. Let me just say that for 22 years, I 
have held one of the largest job fairs in Jacksonville and 
Orlando. And some of the key things that I have learned, first 
of all, that to have more success you have to do a lot of 
preparation prior to the job fair. We have training, working 
with young people, working with veterans, first doing their 
resumes, and getting them ready for the interview. And another 
thing, a lot of the employers want you to go online. So we do 
some research on the companies and go online prior to the job 
fair. So it is a lot of work that you have to do prior to the 
workshop. But I make sure I do not invite anybody that does not 
have any jobs. And that is the key. Because a lot of companies 
want to come to be there, but if you do not have any jobs, we 
do not need you. So it is a lot of work, it is a lot of work 
that goes to the job fair before the job fair happens. And so I 
want to thank all of you all for what you all are doing. And if 
there is anything that we can do to make things better or to 
see us move forward, I certainly want to be involved in it. 
Thank you.
    Mr. Roe. I thank the gentle lady for yielding. And in 
completion I think Ms. Brown put a very human face on what we 
see out there in our districts, where we see a homeless mother 
as she described, or a homeless veteran. I think one of the 
saddest things I have heard since I have been in this Congress 
is any veteran is homeless. And there is a very successful 
program out there, the HUD VASH voucher program, which allows 
you to have a voucher to live but you have to find the housing. 
And the problem we found is we have enough vouchers, the 
problem is we do not have enough housing stock to fill. And she 
and I have talked about some things that we may be able to do 
to help increase the housing stock.
    This also comes with a coordinator, a care coordinator that 
goes along with that to help you find these programs out there. 
So the VA is doing a lot of things. I think Dr. Wenstrup may 
have brought it up. We need to back this up a little bit to 
DoD, and start this process as it is happening. But I think 
that is very important.
    Another comment I think is, I do not know whether you have 
looked at a military paycheck, but when I was in the military 
the capital, I live in Tennessee, was Nashville. I did not have 
any capital left at the end of my paycheck. There was not any 
money I could put back to do anything but take care of my 
family. So I think having access to capital, military paychecks 
are still pretty thin. And these Soldiers live, and Sailors, 
Airmen, and Marines live pretty close. And they do not have the 
money. So finding capital to get into the franchising business.
    And Captain Amos, I was sitting here listening to your 
comments, I think I have actually solved the problem of where 
the veterans are. We just call the NSA and ask them, they 
probably can tell us. So I do not think that should be a 
problem anymore.
    I think one of the other comments I think, and Mr. O'Rourke 
you brought it up, I think the Chamber does a fantastic job. I 
want to brag on you all about the job you are doing and the job 
fairs. And Ms. Brown obviously is experienced with these. But 
there are jobs out there and the problem, there are many jobs 
out there that are empty because we do not have trained people 
to be in those jobs. And I think that is what Microsoft and 
others bring to the table. And I think one of the best things I 
read in this testimony today, General, was where if you are a 
veteran, you have honorably served this country, we have a 
place for you in our business. I know many people that work at 
Wal-mart and they started maybe stocking shelves or whatever 
and they are now in a management position. So you, my hats off 
to each and every one of you. I cannot thank you enough for 
what you are doing.
    And I think what we need to do is spread this word around 
the country and get the message out and coordinate a little 
better. That is what I have heard. And that is the difficult 
part. Because so many people want to help. We just heard Ms. 
Titus talk about two separate programs in Las Vegas. And I 
would be remiss not to mention a company in my district, 
Eastman Chemical Corporation, who is headed by a Navy pilot. He 
claims landing at night in a jet on an aircraft carrier was 
hard, I do not know how hard, he seemed to be pretty good at 
it. And he also ran a tremendous company. And he has just since 
retired, Jim Rogers, one of the finest men I ever met in my 
life and had a real commitment to putting veterans because he 
knew the value they brought.
    And I think the other comment that was made was it is not 
tax credits. You can get all the tax credits and things you 
want. That is helpful, no question about that. But even better 
is a good, a very good employee. Having hired people myself for 
30 years, that is the most valuable thing you have is a good 
employee, well-trained. And the saddest day of my life usually 
was when my nurse, who had worked with me for ten years, told 
me she was leaving to go somewhere else. I got depressed with 
that. Because finding great people in your business, that is 
what makes you successful.
    And I thank you all. I want to finish by just thanking each 
and every one of you for being here. And in closing we want to 
be sure that you know that we have five legislative days in 
which to revise and extend remarks, the members do, and include 
any extraneous material in the record on today's hearing topic. 
Hearing no objection, so ordered. Thanks to everyone for being 
here and this meeting is adjourned.
    [Whereupon, at 11:43 a.m., the committee was adjourned.]
                                APPENDIX
                                 <F-dash>

            Prepared Statement of David Roe, Acting Chairman

    Opening Statement of the Hon. David P. Roe, Acting Chairman

    ``What can the Federal Government Learn From the Private 
Sector's Successful Approach to Hiring Veterans?''
    Good Morning, the Committee will come to order.
    As we begin the Committee's work for the second session of 
the 113th Congress, I believe it is appropriate to examine one 
of my top priorities of this Committee since 2011; improving 
employment opportunities for veterans.
    According to the U.S. Bureau of Labor Statistics, the 
unemployment rate for all veterans in December 2013 was 5.5 
percent. This is in sharp contrast to December 2010, when the 
unemployment rate for all veterans was 8.3 percent. This 
equates to a difference of over 369,000 more veterans finding 
work.
    While I believe that programs like the new G.I. Bill and 
VRAP have helped position veterans to obtain the skills needed 
to get a job in today's tough economy, the most significant 
factor in the drop in the unemployment rate has been that 
American corporations, and most importantly small businesses, 
have truly stepped up to the plate and have made it a priority 
to recruit, hire, and retain veterans.
    These companies and trade associations have made hiring 
veterans a priority not out of charity, but because it is 
simply a good business decision. They have learned that the 
soft and hard skills as well as the incredible work ethic that 
veterans bring to the table are unmatched and make them 
excellent employees.
    Today's panel of witnesses represents companies and 
associations that are among the best of the best when it comes 
to hiring and promoting the hiring of veterans. These companies 
have not only launched initiatives to train and hire veterans, 
but they work within their own industries and across the 
private sector to bring innovative approaches to increasing 
employment in the veteran population. I hope that listening to 
their testimony and having the opportunity to ask them 
questions, will give Members a better understanding of the 
commitment these companies have to veterans, and countless 
others, who share this commitment in each of our districts.
    I am also very interested to hear the panel's opinions on 
the federally funded training and hiring programs for veterans 
that Congress funds every year. Many of you know that improving 
the performance of these programs has been, and will continue 
to be, a focus of this Committee, and I look forward to 
learning what programs, if any, the private sector finds to be 
the most successful. In short, what works and what doesn't 
work.
    While great strides have been made in reducing veterans' 
unemployment rates, I think we all agree that much more is 
needed to create the best environment for job creation and 
growth as our men and women continue to transition from active 
duty service into civilian life.
    I remain concerned that over taxation, crushing business 
regulations, which increase costs and reduce competitiveness, 
and the well documented concerns and uncertainty surrounding 
the implementation of the affordable care act, threaten the 
hard work of our panelists and many others in making it a 
priority to hire our veterans. I look forward to hearing from 
each of our panelists today on how Congress can promote pro-
growth policies that will help create new jobs for veterans and 
all Americans alike.
    At this time I yield to the distinguished Ranking Member 
Mr. Michaud to provide his opening remarks.
    Thank you Mr. Michaud and I look forward to working with 
you in the coming year.
    At this time I would like to introduce our first and only 
panel today, and I want to thank each of you for being here 
with us this morning. First we have General Gary Profit, Senior 
Director of Military Programs at Wal-mart ; Mr. Sean Kelley, 
Senior Staffing Director for the Cloud and Enterprise Group as 
well as Military Recruiting at Microsoft; Ms. Maureen Casey, 
the Managing Director for Military and Veterans Affairs at 
JPMorgan Chase; Mr. Jim Amos, the Chairman of Tasti-D-Lite and 
Planet Smoothie, here on behalf of the International Franchise 
Association; and lastly we have Mr. Ross Cohen, the Senior 
Director of Hiring our Heroes at the U.S. Chamber of Commerce 
Foundation. Your complete written statements will be made part 
of the hearing record and each of you will be recognized for 5 
minutes for your written statement. Let's begin with General 
Profit, sir you are now recognized for 5 minutes.
    Thank you, General Profit. Mr. Kelley.
    Thank you, Mr. Kelley. Ms. Casey.
    Thank you, Ms. Casey. Mr. Amos.
    Thank you, Mr. Amos. Mr. Cohen.
    Thank you. I will now yield myself five minutes for 
questions.
    I now recognize the Ranking Member for his questions.
    I want to thank our witnesses for their informative 
testimony and for being here today.
    In closing, I want to acknowledge the good work that has 
been done by this Committee and our VSO partners in improving 
employment opportunities for veterans. From the Committee's 
improved oversight over Federally funded veteran training and 
employment programs, the enactment of the VOW to Hire Heroes 
Act of 2011, which created the Veterans Retraining Assistance 
Program, and the Committee's Veteran Employment Summit, we have 
and will continue to focus on this important matter together.
    Finally, I move that all members have five legislative days 
in which to revise and extend their remarks and include any 
extraneous material in the record on today's hearing topic. . . 
 hearing no objection so ordered.
    Thanks to everyone for their attendance today, this hearing 
is now adjourned.

     Prepared Statement of Michael Michaud, Ranking Minority Member

    Thank you, Mr. Chairman for holding this important and 
timely hearing this morning.
    Providing veterans with opportunities for employment is a 
top priority for this Committee. In a tough economy, we want to 
make sure we are doing everything we can to help our veterans 
succeed in making the transition from active duty to securing 
gainful and meaningful employment.
    This is especially important as we look to future 
servicemembers leaving the military in greater numbers.
    Any employer should be proud to have an employee with the 
resiliency, leadership and collaboration skills that are 
fundamental to all our service men and women. Far too often, 
these experiences are not readily translated to match the needs 
of the private sector. It takes imagination, and a bit of work, 
but in the end the effort is worth it: businesses can get 
access to highly skilled and motivated individuals, and 
veterans can build careers that can benefit their families and 
their communities.
    This morning I look forward to hearing about the successes 
and challenges our witnesses have faced, and their 
recommendations when it comes to hiring veterans. I look 
forward to hearing how public and private entities can better 
work together to provide a better transition to servicemembers 
entering the workforce. I look forward to hearing from our 
witnesses regarding best practices and how these can be used to 
inform the private and public sector in helping veterans find 
jobs.
    Most of all, I look forward to hearing from our friends in 
the private sector about how our country's veterans are 
continuing to serve this nation by contributing their skills 
and talents to these forward-leaning companies.
    Maintaining our Nation's economic leadership in the decades 
ahead will require highly skilled and educated employees who 
will lead the technological charge. Veterans have proven their 
leadership and can-do qualities in service to our country. They 
represent an untapped resource to provide this next generation 
of employees. Our job, on this Committee and in this Congress 
is to find ways to explore new and innovative ways to assist 
veterans, and the businesses that wish to hire them. This 
includes identifying what works and what doesn't, what must be 
modified and what must be viewed anew.
    Thank you Mr. Chairman and I yield back the balance of my 
time.

                                 <F-dash>

                 Prepared Statement of Hon. Bill Flores

    I want to thank Chairman Jeff Miller and Ranking Member 
Michael Michaud for holding this hearing regarding what the 
public sector can learn from private companies about recruiting 
and employing our nation's veterans. I believe that we should 
help our veterans gain the tools for success once they have 
transitioned from service. These men and women made commitments 
to selflessly serve our country and we should provide them an 
effective transition into the civilian workforce.
    This hearing today is an expansion of a similar hearing I 
held last year in Waco, TX with my fellow Subcommittee on 
Economic Opportunity colleague Rep. Mark Takano. That hearing 
entitled ``Texas' Innovative Approaches to Jobs and Employment 
for Veterans'' highlighted the employment opportunities for 
veterans in Texas, specifically demonstrating the fertile and 
versatile employer environments, hiring programs and 
educational opportunities that exist in my state. We heard from 
companies, educational institutions, and state agencies on what 
they have been doing to facilitate the hiring of Texas 
Veterans.
    We are lucky that the unemployment rate for veterans in 
Texas was 3.6 percent for the month of December, which is well 
below the national average of 5.5 percent.
    This difference is due, in part, to our great state's focus 
on pro-growth policies, low taxes, and efficient and innovative 
government programs that partner with the private and non-
profit sector to give unemployed veterans the little boost they 
need to be successful.
    Texas has long standing commitment to the military and 
those who have served which is another major reason for our 
success. This is shown not only in the priority our small and 
large businesses place on hiring veterans, but on the policies, 
programs, and benefits our institutions of higher learning 
offer to these heroes.
    It is exceptional that our hearing demonstrated the 
laudable efforts of the private sector, and has resulted in a 
hearing looking at the national efforts from our five witnesses 
today. Not only did our hearing in Texas result in valuable 
information and demonstrated how Texas can be a model for other 
states, but it also resulted in outstanding legislation that 
can help employ veterans.
    During our hearing in Texas, Ms. Mary Thompson, Dwyer Group 
member and local owner of Mr. Rooter's plumbing services, 
testified that many veterans encounter difficulties when faced 
with excessive start up fees required with starting a 
franchise. To address these obstacles, Rep. Takano and I 
introduced the bipartisan H.R. 3725, the Veterans Entrepreneurs 
Act.
    This legislation will assist veteran entrepreneurs in 
transitioning to the private sector after their military 
service by reducing both the red tape and the costs of starting 
a franchise to help them become small business owners. It will 
make it easier for veterans to own small business franchises by 
establishing a tax credit for veteran franchisees equal to 25 
percent of the franchise fee incurred. This tax credit will 
help offset the initial start up costs for a franchise business 
which is often out of reach for many veterans.
    With self-starting and ``know-how'' skills all veterans are 
trained with, many are especially well suited for business 
ownership and self employment. Given these qualities, the 
franchise model with its ready-made clientele and proven track 
record of success provides a great opportunity for our veterans 
looking to open a small business. While upwards of 70 percent 
of pure startups fail within the first 10 years, investing in 
one's own franchise with its training, established customers, 
and model has a much greater probability of success.
    We must continue to promote private sector efforts to hire 
veterans as well as look for innovative ways to empower 
veterans to be entrepreneurs and small business owners. The 
more veterans we have acquiring and creating jobs, the more our 
economy will continue to grow benefiting both our veterans and 
our nation
    Again, I am excited about the hearing and testimony today. 
As a former businessman myself, I know that jobs for veterans 
start and end with continued commitment from American 
enterprise.

                                 <F-dash>

                  Prepared Statement of Gary M. Profit

    On behalf of Wal-mart Stores, Inc. (Wal-mart ), thank you 
Chairman Miller, Ranking Member Michaud and Members of the 
House Committee on Veterans' Affairs, for the opportunity to 
join you today to talk about veterans hiring.
    Wal-mart has a rich history with veterans, those continuing 
to serve, and military families. Arguably, it begins with 
Captain, U.S. Army, Sam Walton who founded Wal-mart over 50 
years ago. Through the years, the legacy has been enriched by 
countless others, including the 100,000 veteran associates and 
150,000 veteran and military families.
    At Wal-mart , we are thankful for their service and 
sacrifice, and we strive to support their heroism. Right now, 
we know one of their biggest needs is employment and gaining 
the tools necessary to prepare for a career outside of the 
military.
    Besides being the right thing to do, hiring veterans is 
also good for business. We believe veterans and military 
families represent the largest, diverse, talent-rich pool in 
the world and are an essential segment of the next generation 
at Wal-mart . Their value begins with a rock-solid foundation, 
a proxy for which might be the seven Army Values I lived for 
over 31 years: loyalty, duty, respect, selfless-service, honor, 
integrity, and personal courage. It is complemented by the 
nation's huge investment in skills training and leader growth 
and development. Who wouldn't want to hire them?
    But, there must be a sense of urgency: 2.6 million post-9/
11 veterans have left the service and in the next five years, 
one million more will have left. About half of them are between 
the ages of 18 and 34. Unemployment for these younger veterans 
has often been more troubling than their non-veteran 
counterparts.
    So at Wal-mart , we decided to do our part and launched the 
Veterans Welcome Home Commitment last Memorial Day. Vets who 
meet the job requirements and have been honorably separated 
from active duty within the last 12 months have a job at Wal-
mart if they want one. Wal-mart has a host of opportunities at 
our stores and clubs across the country, as well as select 
opportunities in our distribution centers and main offices. If 
you served and sacrificed for your country, you shouldn't have 
to fight for a job when you get home. We believe that in five 
years, we will hire more than 100,000 veterans.
    Since full implementation on Memorial Day, we have hired 
nearly 30,000 veteran associates. These jobs range from part-
time hourly to salaried management; from Wal-mart Stores and 
Sam's Clubs; to Distribution Centers and Transportation 
Offices; and to the Corporate Headquarters.
    One of the other aspects of this commitment that we are 
excited about is the Veteran Champion Program. This program is 
a six week on-boarding process to support the transition and 
integration of the new veteran associates into their new work 
environments. It is guided by an associate who is drawn, 
preferably, from a similar experience.
    In addition to employment, we also strive to understand and 
address some of the specific and special unmet and under-met 
needs faced by veterans and military families. Through the Wal-
mart Foundation, we are committed to a $20 million campaign 
through 2015 and are focused on access to education, job 
training, and reintegration resources. Additionally, as part of 
our Holiday Giving, we announced on Veterans Day, a $1.5 
million grant to the Operation Homefront ``Home for the 
Holidays'' Program and a $500,000 grant to the Fisher House 
Foundation ``Sponsor a Family'' Program. The grants provided 
toys, meals, and lodging to military families in greatest need 
of support and helped hundreds of active duty service members 
come home for the holidays.
    We salute America's heroes. We are honored to have the 
opportunity to employ them, to learn from them, and to support 
them and their families in every way we can.
    Through career training and job opportunities, we're 
helping prepare our troops for successful professional lives 
both during and after their service in the military.
    Thank you Chairman Miller, Ranking Member Michaud and 
Members of the House Committee on Veterans' Affairs for your 
leadership and for holding this hearing. I appreciate the 
opportunity to testify and am prepared to answer any questions.

                                 <F-dash>

                   Prepared Statement of Sean Kelley

    Thank you Chairman Miller, Vice Chairman Bilirakis, Ranking 
Member Michaud, and Members of the Committee. It is an honor to 
testify before you today to discuss how companies like 
Microsoft partner to maximize civilian career opportunities for 
our returning veterans. My name is Sean Kelley and I am the 
Senior Staffing Director for the Cloud and Enterprise 
engineering group at Microsoft and the leader of our company-
wide military recruiting organization.
    This hearing is timely given the large number of veterans 
currently returning to the U.S. seeking civilian employment and 
the simultaneous challenges companies such as Microsoft face 
finding enough skilled Science, Technology, Engineering and 
Math (STEM) workers for their businesses to grow. As a 
recruiter, I see it every day at Microsoft, other IT 
businesses, and companies representing an array of other 
industries. My industry now competes for high-skilled talent 
with the likes GE, Ford, Boeing, Proctor & Gamble, Deloitte, 
Blue Cross and many other U.S. employers. I know many of these 
companies share our mission to support the career paths of our 
veterans. And we are in lock step with this Committee's ongoing 
commitment to serve the veteran community and their families.
    Given the importance and enormity of the task at hand, at 
Microsoft we are constantly thinking of ways to better 
transition these men and women into IT careers.
    Based on our experience helping veterans transition to 
civilian jobs, I would like to focus my testimony on three 
themes:
    1. Expanding initiatives private sector companies such as 
Microsoft are undertaking to help our returning veterans 
acquire the education and skills necessary to help them secure 
rewarding IT careers;
    2. Eliminating barriers companies face trying to help our 
returning veterans acquire the skills they need to transition 
from their military service; and
    3. Sharing lessons we have learned over the last several 
years through Microsoft's veterans initiatives.

My Story

    After graduating from the Naval Academy and starting my 
career as a submarine logistics officer, I was fortunate after 
six years in the Navy to land my first civilian job as a supply 
chain leader at Starbucks Coffee Company. Then, ten years ago 
this March, I moved from Microsoft Operations to our Global 
Diversity and Inclusion organization, searching for an 
opportunity to have a broader, more meaningful impact on the 
company and the world.
    I learned about all aspects of our HR programs and 
processes from colleagues, who for years had advocated to open 
the doors to technology careers for women, minorities, people 
with disabilities, veterans, and other underserved or 
disadvantaged communities. As a military veteran, and third 
generation Navy family member, I wondered what opportunities 
there might be to further explore the experiences and 
challenges veterans faced. I decided to address this topic with 
our Chief Diversity Officer and Outreach Manager. During our 
meeting I learned that both had close family ties to the 
Vietnam War. That day, a shared bond, often unspoken in 
Corporate America at that time, awakened a desire to serve.
    Following the tragic events of 9/11, another group of 
Microsoft veterans and veteran advocates began to form. This 
effort was comprised of veteran advocates with family ties to 
the military, including currently serving Reservists and 
National Guard members. All were seeking community and 
alignment of support for reservists and guard members, and most 
of all, looking for ways to give back. This was the beginning 
of a story that is now many chapters long. It is a story of 
shared commitment to one another, a passion to give back to the 
military community and a dream to make a difference.

Our Call to Action

    The national unemployment rate for veterans is unacceptably 
high. Most disturbing is that the unemployment rate of the 
youngest generation of U.S. military veterans, ages 18-24, who 
have served our country so bravely, developed valuable 
leadership, management, diplomatic and other skills on top of 
their superb military training, is often higher than their non-
veteran counterparts. Our veterans, who face unique challenges 
in transitioning to the civilian employment system or dealing 
with serious health issues, deserve the highest level of 
support to ensure a successful career. Unfortunately, our 
support systems are not fully equipped to help troops and their 
families deal effectively with these transitions. In fact, the 
Department of Defense is spending $1 billion annually on 
unemployment benefits for veterans yet it is often difficult at 
the base and command level to get support for training and 
certification programs while still on active duty which provide 
immediate employment possibilities. As the drawdown of our 
troops continues, now is the time to raise our consciousness as 
part of a national dialogue that includes the public and 
private sectors, to focus on eliminating friction in the re-
training and transition process, and to ensure we are doing 
everything in our power to address these career transition 
issues for our vets and their spouses.

Microsoft's Veterans Initiatives

    Economic projections point to a need for approximately one 
million more STEM professionals than the United States will 
produce at the current rate over the next decade. The United 
States graduates about 300,000 bachelor and associate degrees 
in STEM fields annually. Fewer than 40 percent who enter 
college intending a major in a STEM field complete a STEM 
degree. It is clear that many people, including veterans, lack 
the technology skills and industry certifications employers 
look for to fill the tens of thousands of available IT jobs 
across a broad range of industries. Eight years ago when we 
started exploring how Microsoft could be helpful to our 
transitioning veterans, we were surprised to learn there were 
very few opportunities for veterans to acquire these in-demand 
skills.

Elevate America Veterans Grant Program

    As Microsoft tried to determine how to make an initial 
impact on the challenges faced by veterans, we determined that 
the ecosystem of service organizations was fractured and 
difficult to navigate. Through our Elevate America initiative, 
Microsoft partnered with six non-profit organizations to 
provide skills training, job placement and support services to 
veterans and their spouses over a two-year period. Microsoft's 
commitment to this effort totaled $12 million in cash, product 
and other services. The non-profits that were part of our 
initiative were carefully selected through a competitive RFP 
process. Several national Veteran Services Organizations joined 
our advisory committee to provide valuable input and guidance 
in selecting the grantees, including Paralyzed Veterans of 
America, American Legion, USO, Iraq and Afghanistan Veterans of 
America, and the Wounded Warrior Project.
    Each of the non-profit organizations we worked with had 
demonstrated good placement rates. We selected them not only 
for their ability to provide technology skills training to 
veterans, but their ability to provide career counseling, 
housing, transportation, childcare and other services that 
strengthen the ability for an individual to find employment. In 
many ways, this was an early trial in the ongoing community 
efforts across the nation known as the Sea of Goodwill and 
Community Blueprint.
Elevate America Veterans Voucher Program

    Microsoft has also partnered with the U.S. Department of 
Labor to distribute 10,000 free technology skills training and 
certification packages to veterans around the country. These 
industry recognized certifications provide portable job 
credentials. The resources were provided over a two-year period 
to five local One-Stop Career Centers designed to provide a 
full range of assistance to job seekers under one roof.

Recruiting and Retaining Military Veterans

    A decade into our journey, the Microsoft Military Community 
is now a thriving employee network, with seven chapters around 
the United States, an active Board of Directors, and three 
retired General Officers as the Executive Advisory Committee. 
This network sponsors two events each year, on Memorial Day and 
Veterans' Day, to commemorate these special celebrations and 
create connections across the company. The board serves many 
purposes, including advising Microsoft's Human Resources 
Department on benefits and pay policies for Reservists and 
National Guard members, welcoming all new veteran hires to the 
company, mentoring one another on career transitions, and 
championing involvement within the external military community. 
All of these actions create connections which ease transition 
from the military and aid in growth and development within 
Microsoft for our veteran population.
    Building upon this spirit of service and community 
involvement, the recruiting program was branded under the 
banner ``We Still Serve'' in September 2010. This coincided 
with the investment in a full-time team of former military 
members whose sole purpose is to aid the transition of military 
veterans into Microsoft and the tech industry. MGEN Chris 
Cortez, USMC (Ret.) sponsored this program since its inception 
and added a strong voice to We Still Serve launch. The team has 
partnered with external organizations including Service Academy 
Career Conference, Marine for Life, Student Veterans of 
America, MBA Veterans, The National Center for Women & IT, 
Military MOJO, Recruit Military, Academy Women, Worksource, 
100,000 Jobs Mission, base transition offices, and many local 
jobs fairs and outreach events. Microsoft was a founding 
sponsor and remains an active board member for Hire America's 
Heroes, a consortium which now has nearly 40 corporate 
sponsors, and chapters in Washington and California. The 
consortium provided an early proving ground for public-private 
dialogue and exploration of new pathways to employment for 
veterans.
    The military recruiting program is anchored on our military 
portal, WeStillServe.com, a site that connects transitioning 
military members to our employee-initiated group of veterans, 
and helps match candidates to job opportunities within the 
company. The site includes a unique Military Job Decoder to map 
military occupations to available Microsoft positions, helping 
service members navigate large volumes of job postings. Over 
the last three years our Military Occupational Specialty (MOS) 
decoder has received tens of thousands of unique page views and 
the We Still Serve site has received hundreds of thousands of 
page views.
Microsoft's Software and Systems Academy (MSSA)

    Any career transition is difficult, but as service members 
approach the end of their military careers they face a 
particular challenge. It's not always clear to them how their 
skills apply to jobs in the private sector. This causes stress 
to both service members and their families. But today, thanks 
the VOW to Hire Heroes Act sponsored by Chairman Miller and 
Senator Murray, and signed into law in 2011, service members 
may begin the employment process before their separation from 
the military. That's what inspired our program, which is 
especially important as our military draws down after two major 
military operations overseas.
    Over the next three years, Joint Base Lewis McChord (JBLM) 
alone, in my home state of Washington, will release an average 
of 8,000 servicemembers a year. And we know many other bases 
around the country will also release large numbers of highly 
employable IT workers. Our research shows that there are 
currently 30,000 active military members in technical 
disciplines which might qualify them for jobs at companies such 
as Microsoft. Currently, 474 MOS codes directly map to 
Microsoft job groups on WeStillServe.com.
    The new MSSA program transitions military members into high 
paying jobs in the technology sector. It provides industry 
certification testing and college credit for those in service 
while they are still in the early phase of transition from 
military to their civilian career. The goal of MSSA is to 
create a seamless and successful military-to-employment 
transition, at no cost to the service member.
    Microsoft has partnered with a local university to create a 
rigorous 16-week technical training course that military 
members are enrolled in while still on active duty. Soft 
skills, interview practice and resume preparation are part of 
the curriculum. Each student receives a mentor from a corporate 
sponsor and exercises to practice their new skills. The MSSA 
program is based on leveraging public and private partnership 
to provide a new pathway for military members to transition 
quickly into well paying, upwardly mobile careers. Additional 
Microsoft technical courses will teach skills required for 
specific roles. Candidates are prescreened to ensure they have 
a base level of technical competency, with a strong emphasis on 
programing and problem solving skills, as well as a passion for 
the program.
    MSSA operates on bases in conjunction with DoD education 
and transition program partners. With command authorization, 
service members attend the course as their place of duty during 
their transition phase. As partners, the US Army and JBLM 
commanders, notably Colonel Charles Hodges, have been amazing 
to work with for the first cohort, including releasing one 
Special Forces solider from active service in Afghanistan to 
participate in the program. The VOW Act, the new GI Bill, and a 
loosening of Department of Defense (DoD) regulations enable 
Microsoft and other private organizations to partner with the 
DoD to assist American heroes with programs such as this one. 
And the DoD authorizes these types of training programs in an 
effort to mitigate the large unemployment burden on taxpayers 
as well as provide reasonable assurance or potential for 
employment of transitioning service members.
    In addition to receiving a Microsoft IT Academy-powered 
curriculum from Saint Martin's University, service members who 
completed the MSSA pilot program were offered entry-level roles 
at either Microsoft or Launch Consulting (the technology 
consulting firm administering the program). Alternately, some 
graduates used their new skills to find technology jobs on 
their own or to pursue a four-year degree in computer science.
    As the program reaches additional bases around the country, 
we will offer job interviews to those who successfully complete 
it--a critical step between acquiring any certification and 
gaining meaningful employment. We're confident that program 
graduates will be well prepared to compete for jobs in a 
vibrant, growing sector of the economy. Active-duty service 
members transitioning from all branches of the military, as 
well as members of the National Guard and Reserve returning to 
their civilian jobs, are eligible. The Microsoft Software & 
Systems Academy bridges one great career-serving in the U.S. 
military-with another, creating technologies that improve 
lives. We're pleased by the responses we've received from 
service members who participated in the program, such as in 
Bernard Bergan's recent blog post.

Bernard Bergan's Story

    Bernard Bergan was in the first cohort of veterans to 
complete the Microsoft Software & Systems Academy this last 
December. Over the past five years, he had been serving all 
over the world in the Army as a communications sergeant in the 
First Special Forces Group Airborne, 3rd Battalion. Through my 
recruiting efforts, I was fortunate enough to meet Bernard and 
talk to him about his transition from the Army to his new 
career at Microsoft.
    Bernard told me that serving in the Army taught him the 
value of teamwork, selfless service and a commitment to 
excellence. It also allowed him to see, up close, how 
technology connects us all. While in Afghanistan, he used Skype 
as his primary tool to stay connected with friends and family.
    I have heard the frustration from many service members 
that, prior to Microsoft's MSSA program, there were no seamless 
training programs available for soon-to-be veterans who wanted 
to work in tech. Any career transition is difficult but, for 
those in the military, there are unique challenges. In 
Bernard's blog post, he expressed his gratitude that the MSSA 
program provided him training that helped him ensure his 
financial stability. The guarantee of a job placement within 
Microsoft or through one of its partners was an incredible 
opportunity with a major impact on his family.

Recommendations

    Every time I look into the eyes of a transitioning service 
member during mentor discussions, in interviews, on base visits 
or at a job fair, I am simultaneously disheartened and 
motivated. The system has so much more room to improve and this 
room for growth motivates me to find new ways to open doors to 
the technology industry for my fellow veterans. We can do 
better. The VOW Act laid a foundation for much needed 
improvement. Building on that momentum, here are a few 
recommendations to enhance the private sector's ability to 
employ more of our veterans:

        <bullet> Enhance GI Bill language and funding for STEM and 
        computer science related degrees. The statistics don't lie. We 
        know that's where the jobs are. It's also where our vitality as 
        a nation rests, and our veterans deserve more opportunities to 
        work in these rewarding careers. By actively encouraging 
        pursuit of these degrees with appropriate incentives, we tip 
        the playing field in favor of the veteran.
        <bullet> Provide access to contact information of veterans 
        attending college on the new GI Bill, through a confidential, 
        affirmative, opt-in technology solution to encourage stronger 
        employment opportunities and alignment to STEM degrees.
        <bullet> Quickly broaden the impact of programs like MSSA 
        around the country by encouraging top-down letters of support 
        by all Service branches supplemented Operation Orders by local 
        base commanders to support, engage and cooperate in these pre-
        separation, on-base, training initiatives as supported and 
        approved in the VOW Act.
        <bullet> Encourage uniformity in tuition assistance across 
        military branches to reduce complexity and road blocks for 
        service members participating in training programs such as 
        MSSA.
        <bullet> Encourage stronger partnership between the Department 
        of Labor and Department of Defense under its VOW Act directive 
        to ``take a hard look at how to translate military skills and 
        training to civilian sector jobs.'' This directive will ``make 
        it easier to get the licenses and certification our veterans 
        need.''
        <bullet> With the expansion of the cyber-economy, consider 
        legislation to expedite or grant extensions of security 
        clearances for those entering technology fields.
Conclusion

    As you know better than most, our military veterans are a 
national treasure. We've invested immeasurable dollars, time 
and sacrifice to create the most powerful human asset on the 
planet-military veterans. They are smart, motivated, rapid 
learners who are technical, loyal team players, yet they are 
virtually untapped by private industry. They are the most 
valuable human asset on earth and we, as a nation, all too 
often allow them to walk out the door of the military and end 
up under-or unemployed. The untapped potential of this asset is 
in plain view on their DD214s, waiting to be organized, 
interpreted and leveraged to provide data-informed career 
paths. Doing so will accelerate the American economy and our 
veterans' success. But the human element is even more 
important. These individuals and their families have made 
incredible, selfless sacrifices for our country. We owe it to 
them to recognize not just their past contributions, but what 
they have to offer in the future. We'll all benefit from that 
recognition. And the families of these heroes will benefit, 
too.
    Now is the time for our government, non-profit and 
corporate leaders to truly live up to the promise to which we 
should all feel obligated: ensuring that those who sacrifice 
the most for our cherished way of life can flourish and share 
in the American Dream.
    Microsoft is fully committed, as am I, to continuing to 
innovate, invest and participate in the circle of solutions 
that bring our military veterans to the family wage careers of 
the future. We believe this future is unleashed through 
education in STEM fields and via industry-sponsored training 
programs with commitments to hire graduates. The Microsoft 
Services & Software Academy proves that the VOW Act is making a 
difference, that public-private partnerships work, that 
veterans have what it takes to land STEM jobs, that industry 
leaders such as Microsoft want to hire veteran workers. Now is 
the time to act, to accelerate progress by aligning our 
resources behind proven concepts that lead to high paying jobs 
in the new economy. The need is great but so are the 
opportunities.
    Thank you for your commitment to veterans. And thank you 
for allowing me to share my story and Microsoft's commitment to 
our nation's veterans. We Still Serve.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

                     Prepared Statement of Jim Amos

    Chairman Miller, Ranking Member Michaud, and members of the 
Committee, thank you for inviting me to testify today on 
successful private sector programs for hiring veterans. My name 
is Jim Amos, and I am the Chairman of Tasti D-Lite and Planet 
Smoothie, world-renown franchise brands of frozen treats and 
beverages. I am a veteran of the franchise industry, with past 
experience as the CEO of Mail Boxes Etc. (now The UPS Store) 
and as past Chairman of the International Franchise 
Association. I am also a military veteran, a former Marine 
Corps captain and veteran of two combat tours in Vietnam. I 
appear before you today on behalf of Tasti D-Lite and the 
International Franchise Association.
    With nearly 1 million veterans transitioning out of 
military service over the next 5 years, it is more important 
than ever that we help veterans re-integrate into the civilian 
economy. Our service men and women are looking forward to 
rejoining their families, going back to school or starting 
their own businesses. It is both an economic necessity and a 
moral obligation for our country to facilitate this transition.
    Franchising is a large community of diverse business 
concepts that all grow and operate using the franchise business 
model. In this model, entrepreneurs open their own businesses 
and purchase the rights to operate their business using the 
trademarks, products, and business strategies of a proven 
franchise system. Franchise businesses are very common in the 
restaurant and hospitality space, but franchising is also 
popular in business services, personal services, retail, and 
automotive.

Veterans in Franchising--A Good Fit

    In the franchise industry, we like to say that franchise 
owners are in business for themselves, but not by themselves. 
Franchise owners are typically highly motivated individuals who 
are natural problem-solvers. Successful franchise owners 
normally exhibit excellence in execution of precise and proven 
business plans. Franchise systems have complex, yet effective, 
operations guidelines, and the franchise owners that can best 
execute that system are the owners who realize the most success 
in their business. Many of the qualities that make successful 
franchise business owners are found in our Nation's service men 
and women, while the training techniques used in the military 
provide a significant skill set that is especially valuable in 
franchise business owners. Above all else, veterans possess the 
leadership skills necessary to run a successful business, and 
to persevere through tough times to keep that business running. 
Franchise companies actively recruit veterans as franchise 
owners, knowing that veteran-owned franchises tend to out-
perform other locations.
    For nearly forty years, I have been privileged to both 
create and support programs for hiring veterans as part of my 
career in franchising. What I have learned is that these young 
men and women are clear examples of American Exceptionalism. 
They are true American heroes who bring back security 
clearances, training, character, passion, dedication and a get-
it-done mentality that any company or organization would pay to 
have as a human asset within their corporations. Spreadsheets 
and net-present values tell you the history of a company, but 
it is the people who tell you its future. When my brothers and 
sisters returned from Vietnam, we were met by a nation so 
anxious to leave an unpopular war behind that, by proxy, we 
left the veterans behind as well. We should ensure that this 
never happens again.

VetFran
    Recognizing that franchising is a great fit for 
entrepreneurial veterans, the International Franchise 
Association launched the Veterans Franchising Initiative, or 
VetFran, in 1991 in an effort led by Don Dwyer, a United States 
Air Force veteran and founder of The Dwyer Group, a family of 
franchise brands. The initiative was launched to support 
veterans returning from the gulf war in their transition to the 
civilian economy. VetFran is an industry-wide initiative to 
encourage franchise companies to both hire veterans as team 
members and recruit them as franchise owners. As part of 
VetFran, franchisors offer special incentives to qualified 
veterans who purchase franchise agreements. Incentives range 
from thousands of dollars in initial inventory, special 
financing on equipment, or a discount on the initial franchise 
fee. Some franchise systems even offer one free franchise to a 
qualified veteran franchisee each year. VetFran members are 
also able to share best practices concerning the veterans 
hiring initiatives within their own companies. VetFran 
currently has a membership of 618 franchise systems.
    When I first took the help at Mail Boxes, Etc., now The UPS 
Store, following the guidance put in place by the International 
Franchise Association and the VetFran program, we instituted a 
focused hiring program for veterans, offering benefits and 
incentives to become part of our family. As a result, hundreds 
of store owners and employees ultimately took advantage of 
these programs. When we purchased Tasti D-Lite, and later 
Planet Smoothie, the first thing we did was join the IFA and 
offer all veterans a 25 percent discount on the initial 
franchise fee as part of the VetFran program. We not only sold 
franchises to returning veterans, but also offered hiring 
programs that encouraged a full career path in addition to the 
route of franchise ownership.
    As a starting point, I would like to point out that there 
are 23 million veterans in our country today, and 1.5 million 
of them are on active duty. An additional 1.2 million are in 
the National Guard or reserves. 3.7 million veterans are under 
age 39, and there are 2 million children in these veterans' 
households, 95 percent of whom are under age 12. What results 
has VetFran been able to deliver to meet the needs of these 
veterans and their families?

Results

    A survey of VetFran members reveals that the program has 
achieved impressive results. In 2011, IFA launched Operation 
Enduring Opportunity, a campaign to hire, and recruit as 
franchise business owners, 80,000 veterans, wounded warriors 
and their spouses, through 2014. In a report on Veterans Day in 
2013, a survey revealed that the franchise industry has nearly 
doubled its hiring target. Since 2011, over 151,000 veterans 
have started careers in franchising, including 5,192 veterans 
that have been recruited as franchise owners. The survey also 
revealed that veterans hire other veterans, as veteran 
franchise owners were 30 percent more likely to hire other 
military veterans than non-veteran franchise owners. 
Unsurprisingly, the survey went further to indicate that 
veteran-owned franchises were more successful than other 
franchise businesses, far our-pacing non-veteran-owned 
franchises in both sales and number of jobs created.
    Of the franchisors surveyed, 97 percent indicated that 
veterans were a good fit as franchisees. Of the 3 percent that 
indicated that veterans were not a good fit for franchising, 
``high level of investment being a barrier'' was given as the 
underlying reason. With this in mind, VetFran and its member 
companies continue to strive to help veterans overcome this 
financial barrier.

Veterans Entrepreneurs Act of 2013

    To assist veterans in opening franchise small businesses, 
Rep. Bill Flores (R-TX) introduced H.R. 3725, the Veterans 
Entrepreneur's Act of 2013, legislation that would provide a 
tax credit to qualified veteran franchise owners worth up to 25 
percent of the initial franchise fee, capped at $400,000. In 
addition to the real estate, equipment and inventory necessary 
to open a franchise, the initial franchise fee is a significant 
investment, and remains a barrier to opening a franchise 
business. When coupled with the incentives offered by franchise 
systems as part of VetFran, this tax credit will go a long way 
toward helping veterans open new businesses. Given that 
veterans tend to hire other veterans, this legislation would 
also have a multiplying effect on veteran hiring. There is a 
similar piece of legislation in the Senate, called the Help 
Veterans Own Franchises Act, sponsored by Senators. Bob Casey 
(D-PA) and Marco Rubio (R-FL). The franchise community already 
has a demonstrated record of success in implementing veterans 
hiring programs, and we believe that this legislation will 
serve to expand on that success while providing veteran 
entrepreneurs with a significant financial incentive to realize 
the American Dream of owning and operating their own small 
businesses.

Conclusion

    The franchise community has seen modest successes in hiring 
and recruiting veterans, but there is still so much work to be 
done to serve the veterans that have served us so honorably. 
Creating an industry-wide program for IFA's member companies to 
participate in hiring veterans has allowed us to involve as 
many companies as possible, and share best practices for member 
companies that are building their own veterans hiring programs. 
Most of all, it has allowed us to ``turn up the volume,'' and 
stress the importance of these hiring programs across the 
private sector. As we recruit additional franchise systems to 
join VetFran, their industry peers want to join as well. We are 
constantly looking to build on the rolls of companies involved 
in VetFran.
    Other significant partnerships have grown out of these 
efforts to hire and recruit veterans. Colleges and universities 
are building entrepreneurship programs for veterans and 
including franchising and franchise management as a course of 
study. Other proposals seek to include franchise training as 
education that can be covered under the G.I. Bill. 
Opportunities for veterans are rapidly growing, but we have not 
yet achieved our goal. Far too many veterans are unemployed, 
and others lack the support they need to successfully 
transition into the civilian economy. It is imperative that the 
private sector continue to build on its recent successes, and 
work as best it can with policymakers in Washington to create 
additional programs and incentives to hire veterans. I thank 
you for the opportunity to testify today, and I look forward to 
answering any questions you may have.
                                 <F-dash>

                   Prepared Statement of Ross Cohen 

    The U.S. Chamber of Commerce Foundation [USCCF] is a 
501(c)(3) non-profit affiliate of the U.S. Chamber of Commerce 
dedicated to strengthening America's long-term competitiveness 
by addressing developments that affect our Nation, our economy, 
and the global business environment. USCCF presents a broad 
range of programs that promote a greater understanding of 
economic and public affairs issues.
    The U.S. Chamber of Commerce is the world's largest 
business federation representing the interests of more than 3 
million businesses of all sizes, sectors, and regions, as well 
as state and local chambers and industry associations. The 
Chamber is dedicated to promoting, protecting, and defending 
America's free enterprise system.
    More than 96 percent of Chamber member companies have fewer 
than 100 employees, and many of the Nation's largest companies 
are also active members. We are therefore cognizant not only of 
the challenges facing smaller businesses, but also those facing 
the business community at large.
    Besides representing a cross-section of the American 
business community with respect to the number of employees, 
major classifications of American business--e.g., 
manufacturing, retailing, services, construction, wholesalers, 
and finance--are represented. The Chamber has membership in all 
50 States.
    The Chamber's international reach is substantial as well. 
We believe that global interdependence provides opportunities, 
not threats. In addition to the American Chambers of Commerce 
abroad, an increasing number of our members engage in the 
export and import of both goods and services and have ongoing 
investment activities. The Chamber favors strengthened 
international competitiveness and opposes artificial U.S. and 
foreign barriers to international business.
    Positions on issues are developed by Chamber members 
serving on committees, subcommittees, councils, and task 
forces. Nearly 1,900 businesspeople participate in this 
process.
    Good morning, Chairman Miller, Ranking Member Michaud, and 
distinguished members of the Committee. My name is Ross Cohen 
and I am the Senior Director of the U.S. Chamber of Commerce 
Foundation's Hiring Our Heroes program. Thank you for providing 
us with an opportunity to share our experience regarding 
successful approaches to hiring veterans and military spouses.
    Since 2011, Hiring Our Heroes, a program of the U.S. 
Chamber of Commerce Foundation, has worked aggressively to 
assist veterans, transitioning service members, and military 
spouses find meaningful employment opportunities. We knew from 
the beginning that our success hinged on two critical factors. 
First, local communities would be the cornerstone of any 
national program to reduce veterans' unemployment. Second, we 
had to bring that local community together by working with a 
wide array of private and public sector partners. That 
community includes, but is not limited to, our partners in 
various federal agencies and local government, national and 
local businesses of all sizes, our vast network of local 
Chambers of Commerce, and other non-profit and private sector 
partners.
    Over the last three years, we have seen significant 
improvement in the unemployment rates among veterans and 
military spouses. We are proud of the work that has been 
accomplished, but we have a long road ahead. With nearly 1.5 
million service members set to transition in the next five 
years, as well as hundreds of thousands of military spouses, 
Hiring Our Heroes and our partners must be ready to answer that 
call and provide veterans and military spouses with the 
employment opportunities that they so richly deserve.

Background on Hiring Our Heroes

    Hiring Our Heroes, a program of the U.S. Chamber of 
Commerce Foundation, launched in March 2011 with a relatively 
simple mission: to assist veterans, transitioning service 
members, and military spouses in finding meaningful employment 
opportunities. Working with the U.S. Chamber of Commerce's vast 
network of state and local chambers and other strategic 
partners from the public, private, and non-profit sectors, our 
goal was to create a movement across America in hundreds of 
communities where veterans and military families return every 
day.
    Our initial efforts focused on hiring fairs throughout the 
United States. Since 2011, we have hosted more than 660 job 
fairs in all 50 states, the District of Columbia, and Puerto 
Rico. Thus far, more than 21,000 veterans and military spouses 
have been hired by employers--ready, able, and willing as a 
direct result of these hiring fairs.
    Our hiring fairs also include employment workshops 
providing veterans and military spouses valuable job search 
skills like networking, writing their resume, and interviewing. 
Great companies like GE, University of Phoenix, and First 
Command, as well as non-profit partners like Goodwill 
Industries, have donated countless hours to providing expert 
training to more than 8,000 veterans and military spouses.
    Recently, the Call of Duty Endowment (CODE) recognized 
Hiring Our Heroes for its hiring fairs and awarded it the first 
ever ``Seal of Distinction''--an award program that highlights 
non-profit organizations that have proven to be the most 
effective and efficient at placing veterans into high quality 
careers.
    From our experience, the first step for employers is laying 
down the marker and making a commitment to hire veterans and 
military spouses. Together with Capital One, we launched the 
Hiring 500,000 Heroes campaign in March 2012 with a goal of 
securing half a million commitments to hire by the end of 2014. 
Once a business commits, we work with them to turn those 
commitments into hires. To date, more than 1,400 businesses of 
all sizes have committed to hire 361,000 veterans and military 
spouses and 247,000 hires have been confirmed.
    Hiring Our Heroes also has developed a suite of online 
services to assist veterans and military spouses as they 
transition to the civilian sector. From our online Resume 
Engine built in partnership with Toyota, to eMentor and to Fast 
Track, our online tools are designed to make it easier for 
veterans to identify career opportunities and to put them in 
the best position to succeed. Best of all, these services are 
provided at no cost to the veteran, transitioning service 
member, or military spouse.
    Finally, we must not forget the tremendous sacrifices faced 
by military spouses and the unique challenges they face when 
trying to search for and maintain a career.
    The fact is that most military spouses can expect to move 
an average of eight times over a 20-year military career, often 
with little or no notice. Those with professional licenses 
(e.g., lawyers, health care professionals, and teachers) face 
significant employment hurdles if their licenses are not 
portable from one state to another. And, since many military 
families need to be dual-income, these challenges can have a 
significant impact on long-term retention and military 
readiness.
    With that in mind, Hiring Our Heroes established a Military 
Spouse Program at the beginning of 2012. Nearly a dozen of the 
nation's largest companies quickly answered the call, including 
USAA, La Quinta Inns & Suites, Toyota, and Verizon. We host job 
fairs and networking receptions exclusively for military 
spouses on military installations each year. The fairs include 
value-added content to help spouses plan a career, such as 
resume and interview workshops, networking, and professionalism 
presentations. We have also begun to maintain LinkedIn groups 
of all who attend our events and promote further career 
development events, local connections, and job postings.

Creating Private-Public Partnerships

    Creating private-public partnerships has been and continues 
to be a critical component of our efforts. Over the last three 
years, Hiring Our Heroes has benefitted from its unique 
position to call upon a wide array of partners including those 
from the private, public, and non-profit sectors. These 
partnerships have helped us to create deep roots in local 
communities and impact hundreds of thousands of veterans and 
military spouses.
    Not surprisingly, given the U.S. Chamber of Commerce's long 
standing work on behalf of American business, we started our 
efforts by reaching out to some of the nation's largest 
businesses to sit on our Veterans Employment Advisory Circle 
(VEAC) and a Military Spouse Employment Advisory Circle 
(MSEAC). Over the past three years, more than 35 of these 
businesses, representing nearly every segment of industry in 
America, have sat on the VEAC or MSEAC and provided critical 
guidance on our mission.
    We have forged key partnerships with the White House's 
Joining Forces, the U.S. Department of Veteran Affairs (VA), 
the U.S. Department of Labor (DOL), and several of the 
Department of Defense services. In 2013, we formed an agreement 
with the U.S. Army Installation Management Command (IMCOM), 
which led to a Fragmentary Order (FRAGO) to Transition Service 
Managers around the world. This FRAGO is intended to make 
soldiers aware of Hiring Our Heroes resources as they 
transition out of the Army.
    More recently, we collaborated with VA to create a national 
``Guide to Hiring Veterans''--a new resource to point employers 
to the most valuable resources available to assist them in the 
process of hiring and retaining veterans. Information available 
in the Guide includes: online job banks and military skills 
translators, VA benefits, Hiring our Heroes job fairs, American 
Job Centers, Veterans Gold Card, Official Wounded Warrior 
Programs, and more. We hope all interested employers will use 
this guide to learn more about this important issue and to 
connect with veterans for careers in our communities 
nationwide.
    We also have created strong partnerships with other non-
profits throughout the United States. From non-profits, like 
the George W. Bush Institute, Blue Star Families, the Institute 
for Veterans and Military Families (IVMF), Got Your 6, and 
Points of Light, and Student Veterans of America, we are united 
in our singular focus of helping veterans and military spouses 
find meaningful employment opportunities.
    The value of these partnerships becomes evident at our 
hiring fairs where the entire community comes together. Our 
network of state and local Chambers works hard to bring 
together the local business community and open up thousands of 
jobs to local veterans and military spouses. Local military 
officials, including Guard and Reserve components, frequently 
open up their facilities to host our events. The VA plays a 
critical role by making sure that veterans are aware of their 
benefits and enrolled in eBenefits. DOL and its representatives 
from American Job Centers also work to provide ongoing 
assistance in their local communities. The Employer Support of 
the Guard and Reserves (ESGR) provides invaluable resources in 
every state. Finally, many of our VSO partners bring out the 
established community of veteran leaders to support and promote 
our events.

Looking Forward

    When Hiring Our Heroes launched in March 2011, the 
employment situation for veterans and military spouses was 
bleak. Post-9/11 veterans faced an unemployment rate greater 
than 12 percent, which was nearly 50 percent higher than the 
national unemployment rate. For veterans under 25, the 
unemployment rate was closer to 30 percent a rate that was two 
times the unemployment rate faced by their civilian 
counterparts. One in four military spouses was unemployed.
    There is no doubt that the situation has started to 
improve. According to the Bureau of Labor Statistics, veteran 
unemployment continues to fall in every segment of the veteran 
population. We have seen post-9/11 veteran unemployment drop to 
below 10 percent and unemployment for veterans under 25 is down 
ten points to approximately 20 percent. However, according to a 
2012 Department of Defense report, one in four military spouses 
remain unemployed.
    While these figures show improvement, we have a long way to 
go. The fact is that 800,000 veterans were unemployed at the 
beginning of 2013. We also will see unprecedented departures 
from active duty service in the next five years--up to 300,000 
per year for the next five years, and that does not include 
spouses. At the same time, many federal jobs may be unavailable 
to veterans because of constrained budgets. The private sector 
will need to step up to the plate.

Moving Forward

    Hiring Our Heroes is ready to answer the call and will step 
up its efforts in 2014. Not only will we host more than 200 
hiring fairs across the country this year, we will focus our 
efforts by targeting communities with the greatest need. We 
will also host more fairs directly on military installations in 
hopes of reaching service members well before their transition 
from the military. And, we will continue to develop more 
innovative online resources to make it easier for businesses to 
connect with job-seeking veterans and military spouses. These 
tools will better prepare both employers and service members 
for the job search process.
    We also will strengthen our public-private partnerships. 
Hiring Our Heroes plans to work more closely with the 
Department of Defense, VA, and Department of Labor to reach 
service members and spouses earlier in the transition process. 
By combining our efforts, we also can help businesses, 
veterans, and military spouses navigate through the clutter of 
all the resources available to them and identify the best tools 
available.
    A good example of these more robust partnerships will occur 
in February 2014, where we will take part in a two-day Veterans 
Jobs Summit at Fort Bliss, Texas. Hosted in partnership with 
the VA, Department of Labor, Joining Forces, and the U.S. Army, 
the event will feature seminars and breakouts on the service 
member transition process, tools and best practices for 
employers looking to hire, and presentations from key military 
and governmental agencies. The summit will culminate on 
February 4th with a job fair for service members who are within 
90 days of their transition date.
    A similar event will occur at Fort McCoy, Wisconsin, in 
April during a three-week Army Reserve Training Exercise. 
Approximately 5,000 members of the United States Army Reserve 
from across the country will be participating in this exercise. 
We are working with national companies to attend the fair in 
order to share job opportunities from across the country. Our 
goal is to ensure each and every service member is equipped 
with all the tools necessary to know what opportunities exist, 
empowering them to make educated choices for their futures.

Conclusion

    Over the last three years, Hiring Our Heroes has been proud 
to serve our veterans and military spouses in local communities 
throughout the United States and to do so with a wide array of 
private and public sector partners. While we have much to be 
proud of, there is much more to do. We must stay vigilant and 
provide transitioning service members, veterans, and military 
spouses with the meaningful employment opportunities they so 
richly deserve.
    Hiring Our Heroes will continue to be at the forefront of 
this movement. We will remain the community catalyst bringing 
together our partners in our common mission. We will work 
together to achieve fundamental change in veteran and military 
spouse unemployment.
    Chairman Miller, Ranking Member Michaud, and members of the 
Committee, I thank you again for the opportunity to testify and 
look forward to answering your questions.

                                [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
